  2010 Annual FISMA Executive
  Summary Report




                                          March 3, 2011
                                         Report No. 489
Assessment and Review Conducted by C5i
                                                            UNITED STATES
                                           SECURITIES AND EXCHANGE COMMISSION
                                                       WASHINGTON. D.C.     2.0540


        O .... 'cO: 0"
' ..... O:CTO. GO: .. O: ......




                                                  MEMORANDUM
                                                            March 3, 2011


                   To:                  Thomas Bayer, Chief Information Officer, OffICe of Information
                                        Technology (OIT)

                  From:                 H. David Kotz. Inspector General. OffICe of Inspector Genera WbJ.r

                   SUbject:             2010 Annual FISMA Executive Report, Report No. 489

                  This memorandum transmits the U.S. Securities and Exchange Commission's
                  OffICe of Inspector General's (OIG) final report on the 2010 Federal Information
                  Security Management Act of 2002 (FISMA) review. The final report contains
                  eight recommendations which if implemented, should strengthen the
                  Commission's security posture. OIT concurred with all eight recommendations.
                  Your written response to the draft report is included in Appendix VI.

                  Within the next 45 days, please provide the OIG with a written corrective action
                  plan that is designed to address the agreed upon recommendations. The
                  corrective action plan should include informaUon such as the responsible
                  offlCiaVpoint of contact. timeframes for completing the required actions. and
                  milestones identifying how you will address the recommendations cited in this
                  report.

                  Should you have any questions regarding this report, please do not hesitate to
                  contact me. We appreciate the courtesy and cooperation that you and your staff
                  extended to our staff and contractors during this review.

                  Attachment

                  ce:             Kayla J. Gillan. Deputy Chief of Staff, Office of the Chairman
                                  Luis A. Aguilar, Commissioner
                                  Troy A. Paredes, Commissioner
                                  Elisse Walter, Commissioner
                                  Jeff Heslop, Chief Operating Officer, Office of Chtef of Operations
                                  Diego T. Ruiz, Executive Director, Office of the Executive Director
                                  Lewis W. Walker, Deputy Director and Cht9f Technology Officer, Office of
                                      Information Technology




         2010 Annual FISMA Executive Report                                                         March 3, 2011
         Report No. 489
                                                                Page ii
      2010 FISMA Executive Summary Report

                                Executive Summary
In August 2010, the U.S. Securities and Exchange Commission (SEC or
Commission), Office of Inspector General (OIG), contracted C5i Federal, Inc.
(C5i) to assist with the completion and coordination of the OIG’s input to the
Commission’s response to the Office of Management and Budget (OMB),
Memorandum M-10-15 FY 2010 Reporting Instructions for the Federal
Information Security Management Act and Agency Privacy Management. 1 This
memorandum provides the instructions and templates for meeting the fiscal year
(FY) 2010 reporting requirements under the Federal Information Security
Management Act of 2002 (FISMA) (Title III, Pub. L. No. 107-347). 2

C5i commenced work on this project in September 2010. C5i’s tasks included
completing the OIG portion of the FISMA template (Section C) and developing an
Executive Summary Report that communicates the Inspector General’s response
to the 2010 FISMA submission. C5i’s responses were based on information that
was provided in agency staff interviews and a review of supporting
documentation. C5i did not conduct detailed control tests to verify the accuracy
of the data the SEC provided. Based on C5i’s assessment and
recommendations, the OIG submitted its responses to the 2010 FISMA
questionnaire using OMB’s on-line reporting tool, CyberScope.

Background. FISMA, 44 U.S.C. § 3541, et seq., is a United States federal law
enacted in 2002 as the Title III of the E-Government Act of 2002. The statute
recognizes the importance of information security to the economic and national
security interests of the United States. Further, the statute requires federal
agencies to develop, document, and implement an agency-wide program that
provides security for the information and information systems that support the
operations and assets of the agency, including those provided or managed by
other agencies, contractors, or other sources.

FISMA requires agency program officials, Chief Information Officers, Privacy
Officers, and OIGs to conduct annual reviews of the agency’s information
security and privacy programs, and report the results to OMB. The OMB then
uses this data to assist in its oversight responsibilities and to prepare its annual
report to Congress on agency compliance with the statute.

1
  Office of Management and Budget’s Memorandum M-10-15, FY 2010 Reporting Instructions for the
Federal Information Security Management Act and Agency Privacy Management, http://www.
whitehouse.gov/sites/default/files/omb/assets/memoranda_2010/m10-15.pdf.
2
  Federal Information Security Management Act of 2002 (Title III, Pub. L. No. 107-347), http://csrc.
nist.gov/drivers/documents/FISMA-final.pdf.
2010 Annual FISMA Executive Report                                                         March 3, 2011
Report No. 489
                                                 Page iii
FISMA provides the framework for securing the Federal Government’s
information technology. All agencies must implement the requirements of FISMA
and report annually to OMB and Congress on the effectiveness of their
information security and privacy programs. OMB uses this information to:

   (1) Help evaluate agency-specific and government-wide information security
       and privacy program performance;
   (2) Develop its annual security report to Congress;
   (3) Assist in improving and maintaining adequate agency performance; and
   (4) Assist in the development of the E-Government Scorecard under the
       President’s Management Agenda.

As part of its FISMA review, C5i also conducted reviews to examine the SEC’s
continuous monitoring program and covering the SEC’s oversight of contractor
held personally identifiable information. The results of these audits will be issued
later, in separate OIG reports.

Objectives. The overall objective for the FISMA assessment was to
independently evaluate and report on how the Commission has implemented its
mandated information security requirements. Secondarily, the objective was to
provide clarity regarding the OIG’s input and responses to the OMB
questionnaire.

Results. The key findings and results for the 2010 FISMA assessment are as
follows:
   •   The Commission has developed a Certification and Accreditation (C&A)
       program, and is in compliance with applicable regulatory and statutory
       requirements. However, as noted in the SEC OIG’s Assessment of the
       SEC’s Privacy Program, Report No. 485, September 29, 2010 (Report No.
       485), the Office of Information Technology’s (OIT) categorization of
       network vulnerabilities may impact the C&A process. OIT concurred with
       the recommendation and is currently re-evaluating its risk categorization
       process.
   •   The SEC has a Security Configuration Management program that has
       policies and procedures, baselines, and an inventory of software and
       hardware. However, as also noted in Report No. 485, OIT has not fully
       implemented the Federal Desktop Core Configuration (FDCC), exceptions
       have not been reported to the National Institute of Standards and
       Technology (NIST), and justifications for identified “exceptions” have not
       been fully documented.

   •   OIT has an Incident Response & Reporting Program with documented
       policies and procedures. The SEC Incident Response handbook details

2010 Annual FISMA Executive Report                                     March 3, 2011
Report No. 489
                                      Page iv
        the SEC employees and contractors roles and responsibilities in
        reporting/responding to incidents. Incidents are documented from the
        moment of reporting until resolution.

    •   Annual Security Awareness Training was provided to all SEC employees
        and contractors. In 2010, the SEC developed its own training and
        incorporated its “SEC Rules of the Road” training into the sessions. As of
        November 15, 2010, 4,732 of 4,778 (99.04 percent) SEC employees and
        contractors successfully completed the Annual Cybersecurity Awareness
        training.

    •   OIT maintains a Plan of Actions & Milestones (POA&M) process. The
        POA&M details the vulnerability, associated NIST controls,
        remediation/mitigation strategy, risk level, and projected/planned
        remediation date. The POA&M is reviewed and updated quarterly.
        POA&M items are tracked using the Cyber Security Assessment and
        Management (CSAM) tool.

    •   The SEC has a “Remote Access” program that complies with federal
        guidance and employs security measures. The remote access program
        using a two factor authentication requirement comprised of an account
        password and a RSA token that has a Personal Identification Number
        (PIN). SEC employees and contractors can remotely access the SEC’s
        systems with an account password and RSA token and PIN. OIT’s policies
        and procedures are documented and comply with NIST, OMB, and FISMA
        guidance. 3

    •   The SEC has an account and identity management program with policies
        and procedures for both establishing and deactivating physical and logical
        (network) accounts. However, the HSPD-12 card program completion
        date was delayed from September 30, 2010 to June 30, 2011, for both
        physical access and logical access. Also, in several instances, “least-
        privilege,” e.g., access only required to perform the functions of a user’s
        position, was not effectively applied for network accounts having
        “indefinite administrative” privileges, which provide the user with the ability
        to install software and make changes to mandatory settings. In the event
        this level of privilege is granted to a user, it should be only for a set
        amount of time such as 60 - 90 minutes, that is needed to perform a
        specific and approved function and then the privilege should be disabled.

    •   The SEC has a continuous monitoring program that includes vulnerability
        scanning, patch management policies and procedures, and ongoing
        assessment of security controls. However, as noted in Report No. 485,
3
 RSA tokens are two-factor authentication devices based on something you know such as a password or
PIN and something you have such as an authenticator device.
2010 Annual FISMA Executive Report                                                     March 3, 2011
Report No. 489
                                              Page v
         there remains a problem with the timely implementation of new patches.
         Further, OIT maintains insufficient documentation on what patches were
         deployed and the date of deployment.

   •     The SEC has a Contingency Planning program with documented policies
         and procedures. Contingency plan testing is performed bi-annually in
         April and November. Further, “Lessons Learned” from the exercises are
         developed and addressed.

   •     The SEC has a contractor oversight program and has documented
         policies and procedures utilizing adequate security controls in accordance
         with the NIST and OMB guidance.

Summary of Recommendations. We developed eight recommendations to
address vulnerabilities identified in the current assessment. Specifically, we
recommend that:

   (1)    OIT should identify all exceptions to the Federal Desktop Core
          Configuration standards and submit them to National Institute of
          Standards and Technology within 90 days of the issuance date of this
          report.

   (2)    OIT should ensure justifications for deviations from Federal Desktop
          Core Configurations requirements are fully documented.

   (3)    OIT should:

          3a. Perform a thorough review and identify the universe of all
              Commission user accounts;
          3b. Once the universe has been identified, OIT should then identify all
              “active” and “inactive” user accounts and determine whether or not
              the account should be disabled; and
          3c. Take immediate action to disable the accounts of employees and
              contractors who no longer work at the Commission.

   (4)    OIT should review their policies and procedures for disabling accounts to
          ensure they are well-documented and thorough, and provide training to
          appropriate staff regarding account termination procedures.

   (5)    OIT should complete the logical access integration of the HSPD-12 card
          program no later than December 2011, as it reported to OMB on
          December 31, 2010.

   (6)    OIT should conduct a full review and identify the universe of all users
          with elevated privileges.
2010 Annual FISMA Executive Report                                      March 3, 2011
Report No. 489
                                       Page vi
   (7)   Based on the review results of recommendation 6, OIT should enforce or
         develop procedures to ensure:

          7a. Only users whose job function require permanent elevated access
              have the needed privileges;
          7b. Business justifications are fully documented; and
          7c. Elevated privileges are only issued for the finite amount of time
              needed to complete assigned task.

   (8)   OIT should establish and maintain an accurate and current list of all
         users that have elevated privileges.




2010 Annual FISMA Executive Report                                     March 3, 2011
Report No. 489
                                     Page vii
TABLE OF CONTENTS
Executive Summary ......................................................................................................iii

Table of Contents ....................................................................................................... viii

Background and Objectives .......................................................................................... 1

Findings and Recommendations ......................................................................... 3
     Finding 1: Exceptions to Federal Desktop Core Configuration Deviations
     are not Fully Documented .................................................................................. 3
            Recommendation 1 ................................................................................. 4
            Recommendation 2 ................................................................................. 5

         Finding 2: Accounts Are Not Properly Terminated when Users No Longer
         Require Access .................................................................................................. 5
                Recommendation 3 ................................................................................. 7
                Recommendation 4 ................................................................................. 7

         Finding 3: SEC Has Not Adequately Implemented the Personal Identity
         Verification for Logical Access to All Employees and Contractors ..................... 7
                Recommendation 5 ................................................................................. 9

         Finding 4: Privileges Granted are Excessive ..................................................... 9
                Recommendation 6 ............................................................................... 10
                Recommendation 7 ............................................................................... 10
                Recommendation 8 ............................................................................... 11

Appendices
    Appendix I: Acronyms ..................................................................................... 12
    Appendix II: Scope and Methodology .............................................................. 14
    Appendix III: Criteria and Guidance ................................................................ 17
    Appendix IV: List of Recommendations .......................................................... 20
    Appendix V: OIG’s Response to the OMB Questionnaire ............................... 22
    Appendix VI: Management Comments ............................................................ 57
    Appendix VII: OIG Response to Management’s Comments ........................... 59
    Appendix VIII: Screenshots ............................................................................. 60

Tables
     Table 1:          OIG Response to Question 1 ............................................................ 25
     Table 2:          OIG Response to Questions 2 and 3................................................. 31
     Table 3:          OIG Response to Question 4 ............................................................ 36
     Table 4:          OIG Response to Question 5 ............................................................ 37
     Table 5:          OIG Response to Question 6 ............................................................ 39

2010 Annual FISMA Executive Report                                                                  March 3, 2011
Report No. 489
                                                     Page viii
       Table 6: OIG Response to Question 7 ............................................................ 42
       Table 7: OIG Response to Question 8 ............................................................ 48
       Table 8: OIG Response to Question 9 ............................................................ 51
       Table 9: OIG Response to Question 10 .......................................................... 54
       Table 10: OIG Response to Question 11 ........................................................ 56

Figures
     Figure 1:     SEC Administrative Notice, Issued 11/23/2010 ................................ 60
     Figure 2:     CSAM Home Page ........................................................................... 61
     Figure 3:     Inventory of GAO POA&Ms .............................................................. 62
     Figure 4:     POA&M Entry Page ......................................................................... 63
     Figure 5:     POA&M Page ................................................................................... 64
     Figure 6:     Incident Escalation Flow Chart ......................................................... 65




2010 Annual FISMA Executive Report                                                          March 3, 2011
Report No. 489
                                              Page ix
                 Background and Objectives
Background
Overview. In August 2010, the U.S. Securities and Exchange Commission
(SEC or Commission), Office of Inspector General (OIG), contracted with C5i
Federal, Inc. (C5i) to assist with the completion and coordination of the OIG’s
input to the Commission’s response to the Office of Management and Budget
(OMB), Memorandum M-10-15 FY 2010 Reporting Instructions for the
Federal Information Security Management Act and Agency Privacy
Management. 4 This memorandum provides the instructions and templates
for meeting the fiscal year (FY) 2010 reporting requirements under the
Federal Information Security Management Act of 2002 (FISMA) (Title III, Pub.
L. No. 107-347). 5

FISMA provides the framework for securing the Federal Government’s
information technology. All agencies must implement the requirements of
FISMA and report annually to OMB and Congress on the effectiveness of
their information security and privacy programs. OMB uses the information to
help evaluate agency-specific and government-wide information security and
privacy program performance, develop its annual security report to Congress,
assist in improving and maintaining adequate agency performance, and assist
in the development of the E-Government Scorecard under the President’s
Management Agenda.

C5i commenced work on this project in September 2010. C5i’s tasks
included completing the OIG portion of the FISMA template (Section C) and
developing an executive summary report that communicates the Inspector
General’s (IG) response to the 2010 FISMA submission. C5i’s responses are
based on information that was provided by agency staff and through
interviews and the review of supporting documentation. C5i did not conduct
detailed control tests to verify the accuracy of the data the SEC staff provided.
Based on C5i’s assessment and recommendations, the OIG submitted its
responses to the 2010 FISMA questionnaire via OMB’s on-line reporting tool,
CyberScope.

Further, as part of the FISMA assessment, C5i will further conduct audits
examining the SEC’s continuous monitoring program reviewing the SEC’s
oversight of contractor held personally identifiable information. These audits
will be issued later, in separate OIG reports.
4
  Office of Management and Budget’s Memorandum M-10-15, FY 2010 Reporting Instructions for the
Federal Information Security Management Act and Agency Privacy Management,
http:/www.whitehouse.gov/ sites/default/files/omb/assets/memoranda_2010/m10-15.pdf
5
  Federal Information Security Management Act of 2002 (Title III, Pub. L. No. 107-347),
http://csrc.nist.gov/drivers/documents/FISMA-final.pdf
2010 Annual FISMA Executive Report                                                      March 3, 2011
Report No. 489
                                              Page 1
Objectives
The overall objective for the FISMA assessment was to provide an
independent evaluation and report on how the Commission has implemented
its mandated information security requirements. Secondarily, the objective
was to provide clarity regarding the OIG’s input and responses to the OMB
questionnaire.




2010 Annual FISMA Executive Report                                 March 3, 2011
Report No. 489
                                     Page 2
            Findings and Recommendations

Finding 1: Exceptions to Federal Desktop Core
Configuration Deviations Have Not Been Fully
Documented
        OIT has not fully documented its “management decisions”
        for deviating from the Federal Desktop Core Configuration
        (FDCC) requirements. In addition, the Office of Information
        Technology (OIT) has not reported its deviations to the
        National Institute of Standards and Technology (NIST).

FDCC Security Requirements and Standards

As identified in the SEC OIG’s Assessment of the SEC’s Privacy Program,
Report No. 485, September 29, 2010 (Report No. 485), the Commission
maintains a list of deviations from the FDCC security requirements/standards.
However, OIT has not submitted its list of deviations from FDCC to NIST, as
required by OMB Memorandum M-09-29, FY 2009 Reporting Instruction for
the Federal Information Security Management Act and Agency Privacy
Management (OMB Memorandum M-09-29). OIT provided C5i with a list of
its deviations from FDCC standards. The list consists of a comment field
entitled “management decisions.” Based on interviews with OIT staff, C5i
requested clarification on the “management decisions” contained in the
comment field. OIT staff acknowledged that OIT management made a
determination in an OIT management meeting that it would deviate from
FDCC standards. When asked for the meeting notes or information about
who attended the meeting, OIT staff stated that meeting minutes were not
taken and that staff could only recall from memory that the Assistant Director
for Infrastructure Engineering was in attendance at the meeting. Per OMB
Memorandum M-09-29, 6 exceptions to FDCC security configuration
requirements are permitted for requirements that may impair the operations of
agency-specific applications. However, such deviations from the FDCC
security configuration requirements must be documented and submitted to
NIST, and OIT must be able to justify the deviations.

As of January 10, 2011, OIT had not provided NIST with its deviations from
the FDCC requirements. As a result, OIT has not met the OMB requirements
set forth in OMB’s Memorandum for Heads of Executive Departments and

6
 OMB Memorandum M-09-29, FY 2009 Reporting Instructions for the Federal Information Security
Management Act and Agency Privacy Management.
2010 Annual FISMA Executive Report                                                     March 3, 2011
Report No. 489
                                             Page 3
Agencies, M-10-15, FY 2010 Reporting Instructions for the Federal
Information Security Management Act and Agency Privacy Management,
which states, “Agencies must document and provide NIST with any deviations
from the common security configurations 7 and be prepared to justify why they
are not using them. IGs should review such use.” 8 Further, OIT was unable
to justify to the OIG why it is not using the common security configurations.

In addition, during our review of the deviations concerning the SEC’s
password policy, we found some exceptions had only “management decision”
as the stated justification. For example, current SEC policy requires that
passwords have at least
                       and that the password expires every           . FDCC
security configuration requires passwords to consist of a minimum of 12
characters with upper and lower case letters and numbers, and that the
passwords expire every 90 days. C5i requested documentation from OIT
staff to obtain an understanding regarding the nature of OIT’s “management
decision” to deviate from this FDCC requirement, but we were informed that
supporting documentation was unavailable and no substantive explanation
was provided for the decision. Without proper documentation to support its
decision to deviate from the FDCC security requirements, OIT cannot
adequately justify its management decision to not fully implement FDCC’s
security requirements.

        Recommendation 1:

        The Office of Information Technology should identify all exceptions to
        the Federal Desktop Core Configuration standards and submit them to
        National Institute of Standards and Technology within 90 days of the
        issuance date of this report.

        Management Comments. OIT concurred with this recommendation.
        See Appendix VI for management’s full comments.

        OIG Analysis. We are pleased that OIT concurred with this
        recommendation.




7
 Documentation should be sent to this email address: checklists@nist.gov.
8
 OMB’s Memorandum for Heads of Executive Departments and Agencies, M-10-15, Subject: FY 2010
Reporting Instructions for the Federal Information Security Management Act and Agency Privacy
Management, http://www.whitehouse.gov/sites/default/files/omb/assets/memoranda_2010/m10-15.pdf.
2010 Annual FISMA Executive Report                                                         March 3, 2011
Report No. 489
                                               Page 4
        Recommendation 2:

        The Office of Information Technology should ensure justifications for
        deviations to Federal Desktop Core Configurations requirements are
        fully and adequately documented.

       Management Comments. OIT concurred with this recommendation.
       See Appendix VI for management’s full comments.

       OIG Analysis. We are pleased that OIT concurred with this
       recommendation.


Finding 2: Network Accounts Are Not Properly
Terminated When Users No Longer Require
Access to the Network
         SEC network accounts for 14 employees who no longer
         require access to the network were not disabled in a timely
         manner. Additionally, two accounts were used to access
         the SEC’s network after the assigned account users were
         no longer employed.

SEC Network Systems and User Accounts for SEC Employees
and Contractors
To ensure the protection of the SEC’s network systems and data, user
accounts for SEC employees and contractors that leave the SEC (e.g.,
separated/terminated staff) should be disabled on the employee’s or
contractor’s last day of work at the Commission. Account termination
requests are completed by an Information Technology (IT) Specialist or
administrative contact for the office/division where the person works.
Completed requests are submitted electronically to OIT. In the event of an
“involuntary termination,” the Technical Assistance Center (TAC) and OIT
security should be notified immediately of the termination and the account
should then be disabled. User accounts for SEC employees and contractors
that are separated/terminated from the SEC but remain active after their
departure pose a significant security risk to the Commission, because the
SEC’s network systems are vulnerable and could be compromised by these
separated/terminated staff whose access privileges remain active. In
addition, separated/terminated staff could provide the SEC system
information to a malicious party.


2010 Annual FISMA Executive Report                                      March 3, 2011
Report No. 489
                                      Page 5
OMB Circular A-123, Management’s Responsibility for Internal Control,
Appendix A, Internal Control over Financial Reporting requires agency
management to assess, document, test, and report on the effectiveness of
Internal Control over Financial Reporting (ICFR) in its annual Performance
and Accountability Report. The ICFR is a methodology designed to provide
reasonable assurance regarding the reliability of financial reporting. The
following internal control elements are evaluated:

    (1) Control environment;
    (2) Risk assessment;
    (3) Control activities;
    (4) Information and communication; and
    (5) Monitoring.

C5i reviewed the results of the SEC’s ICFR A-123 assessment that was
conducted by the Office of Financial Management’s (OFM) independent
contractors. As part of its assessment the OFM IT controls team issued a
Notice of Findings and Recommendations (NFR) to OIT in August 2010,
which identified the aforementioned deficiency and asked OIT, the control
owners, to validate the results. The ICFR identified Active Directory (AD)
network accounts for separated/terminated SEC employees that were not
being disabled in a timely manner. Specifically, the ICFR identified 14 SEC
employees who had departed from the SEC and whose AD network accounts
were not disabled after their departure. Further, the NFR indicated that two of
these employees’ AD network accounts were logged into after the
employees’ SEC termination date. As a result of OIT not promptly disabling
user accounts when access is no longer needed (i.e., because of separation
or termination from the Commission), former employees accounts remained
active. Hence, a malicious party could have gained access to sensitive SEC
data and compromised the Commission’s system. Further, terminated/
separated users with elevated privileges, (e.g., local administrative rights), 9
pose an even greater potential threat to the SEC data/network because these
staff’s privilege levels allow for access to data/network that is generally not
available to normal users. OIT responded to OFM that they agreed with the
deficiency and would include it in their remediation efforts for IT security.




9
 Local Administrative access provides users with higher privileges on their workstations than normal
users. This level of privilege allows the user to perform functions, such as installation of third party
software, removing or turning off settings, e.g., forced encryption.
2010 Annual FISMA Executive Report                                                                  March 3, 2011
Report No. 489
                                                   Page 6
        Recommendation 3:

        The Office of Information Technology (OIT) should:

            3a. Perform a thorough review and identify the universe of all
                Commission user accounts.
            3b. Once the universe has been identified, OIT should then identify
                all “active” and “inactive” user accounts and determine whether
                any accounts should be disabled.
            3c. Take immediate action to disable the accounts of employees
                and contractors who no longer work at the Commission.

        Management Comments. OIT concurred with this recommendation.
        See Appendix VI for management’s full comments.

        OIG Analysis. We are pleased that OIT concurred with this
        recommendation.

        Recommendation 4:

        The Office of Information Technology should review their policies and
        procedures for disabling accounts to ensure they are well-documented
        and thorough, and provide training to appropriate staff regarding
        account termination procedures.

        Management Comments. OIT concurred with this recommendation.
        See Appendix VI for management’s full comments.

        OIG Analysis. We are pleased that OIT concurred with this
        recommendation.


Finding 3: The SEC Has Not Adequately
Implemented the Personal Identity Verification
for Logical Access to All Employees and
Contractors
        The SEC has not completed logical access integrations of
        Personal Identity Verification (PIV) cards as required by the
        Homeland Security Presidential Directive 12 (HSPD-12).




2010 Annual FISMA Executive Report                                      March 3, 2011
Report No. 489
                                       Page 7
Personal Identity Verification
The SEC has not completed its rollout of the PIV badge to all employees and
contractors, as required by the HSPD-12 directive. As a result, all employees
and contractors are not utilizing the PIV badge for logical access, as required
by the HSPD-12 directive. Further, rollout of the technology to support the
PIV program has not been completed. The HSPD-12 directive was published
in August 2004, and outlined a “Common Identification Standard for Federal
Employees and Contractors.” Per the HSPD-12 directive, the HSPD-12
badge should be used for both physical access (facilities) and logical access
(networks). The directive states, “the heads of executive departments and
agencies shall, to the maximum extent practicable, require the use of
identification by Federal employees and contractors that meets the Standard
in gaining physical access to Federally controlled facilities and logical access
to Federally controlled information systems.” 10

C5i was initially informed that the HSPD-12 badge rollout for all SEC staff and
contractors was to be completed by September 30, 2010. However, the full
rollout date has now been changed to June 2011. As of December 31, 2010,
3,311of 5,334 11 SEC employees and contractors were issued HSPD-12
badges. 12 However, C5i was unable to verify whether the total number of
contactors requiring PIV credentials is accurate because the Commission has
not been able to provide the OIG with a consolidated list of its current
contractors.

OIT reported in its September 30, 2010 report to OMB that the projected
completion of the HSPD-12 logical access integration was to be December
30, 2011. However, OIT has now stated that it will not complete its roll-out of
the logical access requirement for HSPD-12 until it moves to a new operating
system, because this will provide a cost savings to the government. OIT also
indicated that it has identified concerns pertaining to the remote access of
users that use the HSPD-12 card. OIT stated it is performing further work on
identifying technology solutions for these remote access issues. In addition,

10
   Homeland Security Presidential Directive-12 (HSPD-12), Subject: Policies for a Common
Identification Standard for Federal Employees and Contractors, August 27, 2004,
http://www.dhs.gov/xabout/laws/gc_1217616624097.shtm#1.
11
   The 3,311 SEC employees and contractors that were issued HSPD-12 badges was derived from the
total number of PIV credentials the SEC issued to its employees 2,669 and the total number of PIV
credentials that were issued to contractors 642; as reported in the SEC’s HSPD-12 Implementation
Status Report submitted to OMB on December 31, 2010. The 5,334 population of SEC employees and
contractors that were issued badges was derived from the total number of PIV credentials that were
issued to SEC employees 2,669; the total number of PIV credentials that were issued to contactors 642;
the number of SEC employees needing PIV credentials 1,238; and the number of contractors needing
PIV credentials 785; as reported in the SEC’s HSPD-12 Implementation Status Report submitted to
OMB on December 31, 2010.
12
   SEC’s HSPD-12 Implementation Status Report submitted to OMB on December 31, 2010.
http://www.sec.gov/about/piv_report_for_omb.pdf. SEC’s HSPD-12 Implementation Status Report
submitted to OMB on December 31, 2010.
2010 Annual FISMA Executive Report                                                           March 3, 2011
Report No. 489
                                                Page 8
as a result of delays in the SEC completing and adjudicating National Agency
Check Inquiries background investigations, the SEC has not completed its
issuance of PIV credentials to all employees and contractors. Further, the
delays have impacted OIT’s acquisition of technology to support logical
access using PIV credentials. As a result and by not adequately planning the
implementation of PIV for logical access, the agency is non-compliant with the
HSPD-12 directive.

        Recommendation 5:

        The Office of Information Technology should complete the logical
        access integration of the HSPD-12 card no later than December 2011,
        as reported to the Office of Management Budget on December 31,
        2010.

        Management Comments. OIT concurred with this recommendation.
        See Appendix VI for management’s full comments.

        OIG Analysis. We are pleased that OIT concurred with this
        recommendation.


Finding 4: Administrative Access Privileges
Granted to Some SEC Staff are Excessive
        An excessive number of SEC employees and contractors
        were unnecessarily granted administrative access privileges
        on a permanent basis.

SEC Administrative Access Privileges
Approximately 1,000 SEC employees and contractors (users) have been
given local administrative access privileges, which are considered “elevated
privileges,” on a permanent basis, but their job functions do not necessarily
require this level of privilege, other than on a temporary basis. The NIST
Recommended Security Controls for Federal Information Systems and
Organizations, guidance states, “The organization employs the concept of
least privilege, allowing only authorized accesses for users (and processes
acting on behalf of users) which are necessary to accomplish assigned tasks
in accordance with organizational missions and business functions”. 13 Local

13
   The National Institute of Standards and Technology, Recommended Security Controls for Federal
Information Systems and Organizations, Special Publication 800-53, Revision 3, page F-9,
http://csrc.nist.gov/publications/nistpubs/800-53-Rev3/sp800-53-rev3-final_updated-errata_05-01-
2010.pdf.
2010 Annual FISMA Executive Report                                                           March 3, 2011
Report No. 489
                                                Page 9
administrative access privileges for workstations consist of elevated privileges
that allow users to install software on their systems, change configurations,
i.e., disabling mandatory encryption for portable media, etc. Local
administrative privileges are usually granted to SEC employees and
contractors such as system administrators, whose job function requires a
higher level of access in order to manage the network and workstations that
are a part of their job responsibilities. There are occasions when users may
need to install software on their desktops, such as CyberScope to respond to
the OMB FISMA questionnaire. However, these user privileges should
generally be granted within a set or limited amount of time, such as 60 - 90
minutes. Based on interviews conducted with OIT personnel and of the users
that were identified as having elevated privileges, C5i determined that
administrative access was unnecessarily granted to an excessive number of
users on a permanent basis.

We also took a judgmental sampling of the names of current SEC employees
and contractors who had elevated privileges and compared them to the
SEC’s email and phone directory and determined that some SEC employees
and contractors with elevated privileges appeared to no longer work at the
Commission. Having an excessive number of users with elevated
administrative access privileges that are not needed for daily job
responsibilities increases the risk that unauthorized software may be installed
on workstations and the standard controls set by OIT may be altered. Also, if
user accounts with elevated privileges are compromised, a malicious party
may have an easier time accessing the SEC’s networks.

        Recommendation 6:

        The Office of Information Technology should conduct a full review and
        identify the universe of all users with elevated privileges.

        Management Comments. OIT concurred with this recommendation.
        See Appendix VI for management’s full comments.

        OIG Analysis. We are pleased that OIT concurred with this
        recommendation.

        Recommendation 7:

        Based on the review results from recommendation 6, the Office of
        Information Technology should enforce or develop procedures to
        ensure:

            7a. Only users whose job function require permanent elevated
                access have the needed privileges;

2010 Annual FISMA Executive Report                                      March 3, 2011
Report No. 489
                                     Page 10
            7b. Business justification are fully documented; and
            7c. Elevated privileges are only issued for the finite amount of time
                needed to complete assigned task.

        Management Comments. OIT concurred with this recommendation.
        See Appendix VI for management’s full comments.

        OIG Analysis. We are pleased that OIT concurred with this
        recommendation.

        Recommendation 8:

        The Office of Information Technology should maintain an accurate and
        current list of all users that have elevated privileges.

        Management Comments. OIT concurred with this recommendation.
        See Appendix VI for management’s full comments.

        OIG Analysis. We are pleased that OIT concurred with this
        recommendation.




2010 Annual FISMA Executive Report                                        March 3, 2011
Report No. 489
                                       Page 11
                                                                        Appendix I


                                     Acronyms
AD                        Active Directory
BIA                       Business Impact Assessment
C&A                       Certification and Accreditation
CIO                       Chief Information Officer
CISO                      Chief Information Security Officer
CM/QA                     Configuration Management and Quality Assurance
CMU/SEI                   Carnegie Mellon University Software Engineering Institute
COOP/DR                   Continuity of Operations/Disaster Recovery
COTR                      Contracting Office Technical Representative
CSAM                      Cyber Security Assessment and Management
DOJ                       Department of Justice
ESM                       Enterprise Security Manager
FCD                       Federal Continuity Directive
FDCC                      Federal Desktop Core Configuration
FIPS                      Federal Information Processing Standards
FISMA                     Federal Information Security Management Act
GAO                       Government Accountability Office
GSA                       General Services Administration
GSS                       General Support System
HSPD-12                   Homeland Security Presidential Directive 12
ICFR                      Internal Control over Financial Reporting
IDS                       Intrusion Detection System
IG                        Inspector General
II                        Implementing Instruction
IPS                       Intrusion Prevention System
ISA                       Interconnection Security Agreement
IT                        Information Technology
JSAS                      Joint State-USAID
LAN                       Local Area Network
MEF                       Mission Essential Functions
MOU                       Memoranda of Understanding
NEF                       National Essential Functions
NIST                      National Institute of Standards and Technology
O-CCB                     Operations Configuration Change Board
OD                        Operating Directive
OFM                       Office of Financial Management
OHR                       Office of Human Resources
2010 Annual FISMA Executive Report                                       March 3, 2011
Report No. 489
                                        Page 12
                                                                   Appendix I


OIG                       Office of Inspector General
OIT                       Office of Information Technology
OMB                       Office of Management and Budget
OP                        Operating Procedure
PIN                       Personal Identification Number
PIV                       Personal Identity Verification
PMEF                      Primary Mission Essential Functions
POA&M                     Plan of Actions and Milestones
QM                        Quality Management
SANS                      SysAdmin, Audit, Network, Security
SCR                       System Change Request
SEC                       Securities and Exchange Commission
SP                        Special Publication
SSL                       Secure Sockets Layer
SSP                       System Security Plan
ST&E                      Security Test and Evaluation
TAC                       Technical Assistance Center
US-CERT                   United States Computer Emergency Readiness Team




2010 Annual FISMA Executive Report                                  March 3, 2011
Report No. 489
                                      Page 13
                                                                     Appendix II


                     Scope and Methodology
Scope. We conducted our fieldwork for this evaluation from September 2010 to
November 2010.The FISMA evaluation was conducted from August 2010 to
November 2010 and the scope of the review consisted of the following areas that
are found in “OMB Memorandum M-10-15,” for completing the OIG section of the
Fiscal Year 2010 OMB FISMA questionnaire:

   •   Certification and Accreditation Processes and Procedures.
   •   Configuration Management.
   •   Incident Response and Reporting.
   •   Annual Security Awareness Training.
   •   Plan of Action and Milestones (POA&M) Processes and Procedures.
   •   Remote Access Processes and Procedures.
   •   Identity and Account Management.
   •   Continuous Monitoring.
   •   Contingency Planning and Testing.
   •   Commission Oversight of Contractor Systems.

This evaluation focused on the FISMA which requires the SEC OIG to perform an
annual, independent evaluation of the agency’s information security policies,
practices, and procedures. C5i conducted a review of the Commission’s IT
security program (as required by the Act) based on guidance that was issued by
the OMB and NIST. In order to provide OIG’s recommended responses to the
OMB online tool (e.g., information security and privacy items) C5i’s review
included an evaluation of the major security components for FISMA 2010.

C5i completed all data collection instruments related to FISMA 2010 and
(1) Performed the necessary evaluation procedures to answer those questions to
be published by OMB in its reporting guidance, (2) Compiled an Executive
Summary for the SEC’s OIG, and (3) Performed a detailed security evaluation of
two of the SEC’s major security components. The applicable government laws,
directives, regulations, and publications pertinent in support of this evaluation
include the following:

   •   Federal Information Systems Control Audit Manual (FISCAM);
   •   OMB Circular A-130 Management of Federal Information Resources;
   •   OMB’s FY 2007 FISMA Evaluation and Reporting Guidance;
   •   Computer Security Act of 1987;
   •   The Clinger-Cohen Act of 1996 (the Information Technology Management
       Reform Act);
   •   Federal Information Security Management Act of 2002 (FISMA);
   •   NIST Federal Information Processing Standards (FIPS);
   •   Special Publications from the NIST 800 Series;
   •   E-Government Act of 2002;
2010 Annual FISMA Assessment                                         March 3, 2011
Report No. 489
                                    Page 14
                                                                      Appendix II


   •   OMB Memorandum M-06-16;
   •   SEC employees and contractors; and
   •   OIT policies and procedures pertinent to required areas.

Methodology. To meet the objective to complete the IG portion of the annual
FISMA questionnaire, C5i conducted interviews with key personnel, made
independent observations, and examined documentation provided by SEC
officials. Interviews with key personnel included systems owners, business line
managers, OIT representatives, and OIG personnel. These interviews were
further held to garner issues that were germane to completing the OIG portion of
the 2010 FISMA reporting requirement for OMB. We reviewed pertinent records
and supporting documentation (such as policies, procedures, roles and
responsibilities) to address the evaluation objective. Our review of policies and
procedures also included discussions with SEC officials and covered the ten
areas identified in the scope.

C5i staff members reviewed OIT’s C&A packages, including POA&Ms, Incident
Response documentation, pertinent policies and procedures, etc., to ensure
compliance with FISMA, NIST, and OMB guidance. In addition to interviewing
key personnel, C5i, Inc. also reviewed an extensive collection of system artifacts,
policies, procedures and other documentation relating to the systems and issues
identified above. Our analysis was based on all the information provided from
various sources, including testimonial evidence, prior audit coverage, and
documentation and artifacts provided to C5i.

Management Controls. Consistent with the audit objectives, we did not assess
OIT’s management control structure or its internal controls. C5i reviewed
existing controls at the Commission considered specific to 2010 FISMA OIG
Questionnaire (detailed above in the Scope). To thoroughly understand OIT’s
management controls pertaining to its policies and procedures, methods of
operation, and procedures, we relied on information requested and supplied by
OIT staff member and interviews we had with various OIT personnel.

Use of Computer-Processed Data. We did not assess the reliability of OIT’s
computers because it did not pertain to our objectives for this evaluation.
Further, we did not perform any tests on the general or application controls over
OIT’s automated systems, as this was not in scope. The information that was
retrieved from this system as well as the requested artifacts provided to us were
sufficient, reliable, and adequate enough to use in meeting our stated objectives.
We further reviewed the following computer processed data (e.g., Excel
spreadsheets and MS Project plans) that OIT staff members provided to us:

   •   Hardware and software inventory to document C5i’s response to Section
       2, Questions 2 and 3;
   •   Compliance workbook detailing the status of Certification and
       Accreditation of SEC systems (Section 1);
2010 Annual FISMA Assessment                                           March 3, 2011
Report No. 489
                                     Page 15
                                                                   Appendix II


   •   List of patches deployed on SEC systems January 1, 2010 – September
       30, 2010 (Section 2);
   •   List of SEC Network Users with Local Administrative Access Privileges
       (Section 7);
   •   List of FDCC exceptions (Section 2); and
   •   HSPD-12 Implementation Plan (Section 7).

Prior Audit Coverage. C5i reviewed the 2009 FISMA Executive Summary,
Report No. 472, March 26, 2010, which had no recommendations. In the OIG
report entitled, The Evaluation of the SEC Privacy Program, Report No. 475,
March 26, 2010, all the recommendations have all been fully implemented and
closed. Our review of the Evaluation of the SEC Encryption Program, Report No.
476, March 26, 2010 and the Assessment of SEC’s Privacy Program, Report No.
485, September 29, 2010 found that OIT is diligently working on the
recommendations. Though OIT has implemented and closed several
recommendations, several recommendations are still pending and remain open.

Judgmental Sampling. C5i reviewed an Excel spreadsheet OIT staff provided
us which consisted of approximately 1,000 SEC users (employees and
contractors) that were identified as having indefinite local administrative
privileges, as of October 31, 2010. The spreadsheet included the names of
current SEC employees and contractors, the type of privilege authorized, office
phone number, grade/contractor, and assigned office. We judgmentally selected
names from the spreadsheet based on the type of privilege that had been
granted and checked whether the users had active SEC email accounts and
phone numbers. This was done to verify whether or not these personnel still
worked at the Commission. We did not identify any separated/terminated SEC
users.




2010 Annual FISMA Assessment                                       March 3, 2011
Report No. 489
                                   Page 16
                                                                      Appendix III


                       Criteria and Guidance
OMB Memorandum M-10-15, FY 2010 Reporting Instructions for the Federal
Information Security Management Act and Agency Privacy Management.
Provides instructions for meeting agency FY 2010 reporting requirements under
the Federal Information Security Management Act of 2002 (FISMA) (Title III, Pub.
L. No. 107-347).

OMB Memorandum M-07-16, Safeguarding Against and Responding to the
Breach of Personally Identifiable Information (May 22, 2007). Requires agencies
to develop and implement a breach notification policy. This is a responsibility
shared by officials accountable for administering operational and privacy and
security programs, legal counsel, Agencies’ Inspectors General and other law
enforcement, and public and legislative affairs. It is also a function of applicable
laws, such as the Federal Information Security Management Act of 2002 (FISMA)
and the Privacy Act of 1974.

OMB Memorandum M-06-19, Reporting Incidents Involving Personally
Identifiable Information and Incorporating the Cost for Security in Agency
Information Technology Investments (July 12, 2006). Provides updated guidance
on the reporting of security incidents involving personally identifiable information
and to remind you of existing requirements, and explain new requirements your
agency will need to provide addressing security and privacy in your fiscal year
2009 budget submissions for information technology.

OMB Memorandum M-06-16, Protection of Sensitive Agency Information (June
23, 2006). Recommends actions that are needed to protect sensitive information.

OMB Memorandum M-06-15, Safeguarding Personally Identifiable Information
(May 22, 2006). Re-emphasizes agency responsibilities under law and policy to
appropriately safeguard sensitive personally identifiable information and to train
employees on their responsibilities.

OMB Memorandum M-03-22, Guidance for Implementing Privacy Provisions of
the E-Government Act of 2002 (September 30, 2003). Provides information to
agencies on implementing the E-Government Act of 2002 privacy provisions,
signed by the President on December 17, 2002 and effective April 17, 2003.

NIST SP 800-53, Revision 3 Recommended Security Controls for Federal
Information Systems and Organizations, Special Publication 800-53, Revision 3.
Provides details for the 18 Security Control families that are used to assess
information systems and it provides guidance for implementation.




2010 Annual FISMA Assessment                                           March 3, 2011
Report No. 489
                                     Page 17
                                                                      Appendix III

NIST SP 800-72, Guidelines on PDA Forensics. This guide provides an in-depth
look into PDAs and explaining the technologies involved and their relationship to
forensic procedures. It covers three families of devices: (1) Pocket PC, (2) Palm
OS, and (3) Linux-based PDAs, and the characteristics of the devices associated
operating system.

NIST SP 800-83, Guide to Malware Incident Prevention and Handling. This
publication provides recommendations for improving an organizations malware
incident prevention measures. It also gives extensive recommendations for
enhancing an organizations existing incident response capability so that it is
better prepared to handle malware incidents, particularly widespread ones. The
recommendations address several major forms of malware, including viruses,
worms, Trojan horses, malicious mobile code, blended attacks, spyware tracking
cookies, and attacker tools such as backdoors and rootkits. The
recommendations encompass various transmission mechanisms, including
network services (e.g., e-mail, Web browsing, file sharing) and removable media.

NIST SP 800-86, Guide to Integrating Forensic Techniques into Incident
Response. This guide provides detailed information on establishing a forensic
capability, including the development of policies and procedures. The guide’s
focus is primarily on using forensic techniques to assist with computer security
incident response, but much of the material is also applicable to other situations.

NIST SP 800-101, Guidelines on Cell Phone Forensics. The objective of the
guide is twofold: (1) Helps organizations evolve appropriate policies and
procedures for dealing with cell phones, and (2) Prepares forensic specialists to
contend with new circumstances involving cell phones, when they arise.

CMU/SEI-2003-HB-001, Organizational Models For Computer Security Incident
Response Teams (CSIRTs). The handbook describes different organizational
models for implementing incident handling capabilities, including each model’s
advantages and disadvantages and the kinds of incident management services
that are the best fit.

CMU/SEI-20030TR-001, State of the Practice of Computer Security Incident
Response Teams (CSIRTs). Provides an objective study of the state of the
practice of incident response, based on information about how CSIRTs around
the world are operating. The report covers CSIRT services, projects, processes,
structures, and literature, as well as training, legal, and operational issues.

CMU/SEI-2003-HB-002, Handbook for Computer Security Incident Response
Teams (CSIRTs). Proposes an intrusion-aware design model called trustworthy
refinement through intrusion-aware design (TRIAD). TRIAD helps information
system decision makers formulate and maintain a coherent, justifiable, and
affordable survivability strategy that addresses mission-compromising threats for
their organization.

2010 Annual FISMA Assessment                                           March 3, 2011
Report No. 489
                                     Page 18
                                                                       Appendix III



CMU/SEI-2004-TR-015, Defining Incident Management Processes for CSIRTs.
Presents a prototype best practice model for performing incident management
processes and functions. It defines the model through five high-level incident
management processes: Prepare/Sustain/Improve, Protect Infrastructure, Detect
Events, Triage Events, and Respond. Workflow diagrams and descriptions are
provided for all processes.

CMU/SEI-2005-HB-001, First Responders Guide to Computer Forensics. The
handbook is for technical staff charged with administering and securing
information systems and networks and it targets a critical training gap in the fields
of information security, computer forensics, and incident response.

SAND98-8667, A Common Language for Computer Security Incidents. Presents
the results of a project to develop a common language for computer security
incidents. The project results are based on the cooperation of the Security and
Networking Research Group and the CERT® Coordination Center.

Federal Information Security Management Act of 2002, Title III, Pub. L. No.
107-347. Requires federal agencies to develop, document, and implement an
agency-wide program providing security for the information and information
systems that support the operations and assets of the agency, including those
provided or managed by another agency, contractor, or other source.

Homeland Security Presidential Directive-12 (HSPD-12), Policies for a
Common Identification Standard for Federal Employees and Contractors.
Provides guidance and details for implementing a common identification standard
throughout federal agencies.

E-Government Act of 2002 (P.L. 107-347). Enacted on December 17, 2002
with an effective date of April 17, 2003, to improve the management and
promotion of electronic government services and processes.

Federal Information Processing Standard Publication 199 (FIPS 199),
Standards for Security Categorization of Federal Information and Information
Systems. Provides guidance on the proper categorization of an information
system based on the security level of the information contained in the system.

Federal Information Processing Standard Publication 200, (FIPS 200),
Minimum Security Requirements for Federal Information and Information
Systems. Outlines the minimum security requirements for the security of Federal
information system.




2010 Annual FISMA Assessment                                            March 3, 2011
Report No. 489
                                      Page 19
                                                                     Appendix IV


                    List of Recommendations

Recommendation 1:

The Office of Information Technology should identify all exceptions to the Federal
Desktop Core Configuration standards and submit them to National Institute of
Standards and Technology within 90 days of the issuance date of this report.

Recommendation 2:

The Office of Information Technology should ensure justifications for deviations
to Federal Desktop Core Configurations requirements are fully documented.

Recommendation 3:

The Office of Information Technology (OIT) should:

          3a. Perform a thorough review and identify the universe of all
              Commission user accounts.
          3b. Once the universe has been identified, OIT should then identify all
              “active” and “inactive” user accounts and determine whether or not
              the accounts should be disabled.
          3c. Take immediate action to disable the accounts of employees and
              contractors who no longer work at the Commission.

Recommendation 4:

The Office of Information Technology should review policies and procedures for
disabling accounts to ensure they are well-documented and thorough, and
provide training to appropriate staff regarding account termination procedures.

Recommendation 5:

The Office of Information Technology should complete the logical access
integration of the HSPD-12 card no later than December 2011, as reported to the
Office of Management and Budget on December 31, 2010.

Recommendation 6:

The Office of Information Technology should conduct a full review and identify
the universe of all users with elevated privileges.




2010 Annual FISMA Assessment                                          March 3, 2011
Report No. 489
                                    Page 20
                                                                   Appendix IV

Recommendation 7:

Based on the review results from recommendation 6, the Office of Information
Technology should enforce or develop procedures to ensure:

          7a. Only users whose job function require permanent elevated access
              have the needed privileges;
          7b. Business justification are fully documented; and
          7c. Elevated privileges are only issued for the finite amount of time
              needed to complete assigned task.

Recommendation 8:

The Office of Information Technology should maintain an accurate and current
list of all users that have elevated privileges.




2010 Annual FISMA Assessment                                        March 3, 2011
Report No. 489
                                    Page 21
                                                                                           Appendix V


         OIG’s Response to the OMB Questionnaire

Section 1: Status of Certification and
Accreditation Program
Background. Certification and Accreditation (C&A) is required by the Federal
Information Security Management Act (FISMA) of 2002, 14 and is the process
used to evaluate systems and major applications to ensure adherence to formal
and established security requirements that are well documented and authorized.
All systems and applications that reside on U.S. government networks must be
evaluated with a formal C&A before it is put into production. Systems are
evaluated annually (referred to as “Continuous Monitoring”) and are re-accredited
every three years, or sooner if major changes to the systems are made. The
documents that comprise a C&A package include:

     •   System Security Plan (SSP);
     •   Risk Assessment – Business and System;
     •   Categorization and Certification Level Recommendation;
     •   Hardware and Software Inventory;
     •   Self-Assessment;
     •   Security Awareness and Training Plan;
     •   Rules of Behavior for the End User;
     •   Incident Response Plan;
     •   Security Test and Evaluation (ST&E);
     •   Privacy Impact Assessment;
     •   Contingency Plan & Recent Test Results;
     •   Configuration Management Plan;
     •   Security Assessment Reports – Physical and Environmental, Network and
         Application Assessments;
     •   Plan of Action and Milestones (POA&M); and
     •   Authorization Memorandum.

In the performance of a C&A, all information systems are given a risk impact
categorization based on the Federal Information Processing Standards (FIPS)
Publication 199 Standards for Security Categorization of Federal Information and
Information Systems. 15 The impact level category for the system determines the
scope of the C&A effort, for example, a low impact system will not be assessed
as stringently as a high impact system. Information systems are categorized and

14
   Federal Information Security Management Act of 2002 (Title III, Pub. L. No. 107-347),
http://csrc.nist.gov/drivers/documents/FISMA-final.pdf.
15
   Federal Information Processing Standards (FIPS) Publication 199 Standards for Security Categorization
of Federal Information and Information Systems, http://csrc.nist.gov/publications/fips/fips199/FIPS-PUB-199-
final.pdf.
2010 Annual FISMA Assessment                                                                March 3, 2011
Report No. 489
                                                Page 22
                                                                                          Appendix V

designated as low, moderate, or high impact and are based on the level of
adverse effect a data breach could have on an organization’s operations, assets,
and personnel. If a data breach occurs on a low impact system, the impact is
expected to be limited. If a data breach occurs on a moderate system, there is a
more serious impact. Data breaches on high systems have a severe or
catastrophic impact.

NIST Special Publication (SP) 800-53, Recommended Security Controls for
Federal Information Systems and Organizations 16 provides control families (e.g.,
Access Control, Incident Response, Identification and Authentication) that are
used when assessing a system for a C&A and what impact level system that
apply. The examples shown below demonstrate that the control applies to Low,
Medium and High impact level systems.

        Example
          AU-11 AUDIT RECORD RETENTION 17

          Control: The organization retains audit records for [Assignment:
          organization-defined time period consistent with records retention policy]
          to provide support for after-the-fact investigations of security incidents
          and to meet regulatory and organizational information retention
          requirements.

          LOW AU-11                 MOD AU-11                  HIGH AU-11

Results of Assessment. The SEC has developed, documented, and
implemented policies and procedures for their C&A program that follows NIST,
OMB, and FIPS 18 framework and guidance. 19 We found that the SEC’s C&A
process provides risk categories, has adequate risk assessments, uses the
selection of appropriate controls, testing of controls are done, and regularly




16
    The National Institute of Standards and Technology Special Publication 800-53, “Recommended Security
Controls for Federal Information Systems and Organizations,” Appendix F, p. F1-F132.
17
   Id. Appendix F, p. F-30.
18
    Federal Information Processing Standard Publications 199, “Standards for Security Categorization of
Federal Information and Information Systems“; FIPS 200, “Minimum Security Requirements for Federal
Information and Information Systems”, The National Institute of Standards and Technology Special
Publication 800-53, “Recommended Security Controls for Federal Information Systems and Organizations”;
Special Publication 800-60, “Guide for Mapping Types of Information and Systems to Security Categories”,
The National Institute of Standards and Technology Special Publication 800-53, “A Guide for Assessing
Security Controls in Federal Information Systems, Building Effective Security Assessment Plans”, The
National Institute of Standards and Technology Special Publication 800-37, “Guide for Applying the Risk
Management Framework to Federal Information Systems: A Security Life Cycle Approach,” Office of
Management and Budget Circular A-130, Appendix III, Security of Federal Automated Information
Resources.
19
   SECR 24-04, Information Technology Security Program, October 4, 2005, OD 24-04.10 IT Security
Compliance Program, April 12, 2006, II 24-04.10.01 Implementing Instruction: IT Security Certification and
Accreditation, June 29, 2005, II 24-04.10.02 Implementing Instruction: IT Security Risk Management,
December 22, 2005, II 24-04.10.03 IT Security Assessments, April 28, 2006, OD 24-04.10 IT Security
Compliance, April 12, 2006.
2010 Annual FISMA Assessment                                                              March 3, 2011
Report No. 489
                                               Page 23
                                                                                         Appendix V

monitors system risks and the adequacy of controls. 20 Our review of a C&A
package found that OIT applies guidance and the best practices defined in the
NIST and OMB guidance. Further, we found that authorizing officials are
presented with a complete C&A package to facilitate informed system
authorizations, to operate decisions based on risks and controls that are
implemented. OIT staff documents deficiencies in the POA&M and tracks them
for remediation.

In 2008, the Commission purchased the Department of Justice (DOJ) sponsored,
web-enabled Cyber Security Assessment and Management (CSAM) tool to
assist in performing and tracking all C&A activities. The CSAM tool was
deployed at the Commission in March 2009. OIT uses CSAM to track system
inventory, the security categorization of each information system, the status of
C&A activities, weakness descriptions and remediation plans in the form of
POA&M’s, NIST 800-53 control assessment results, audit finding maintenance,
monitoring, FISMA quarterly reports, and OIG and Government Accountability
Office (GAO) audit recommendations. 21 See screenshots of the CSAM functions
OIT uses to track C&A activities in Appendix VIII.

Specific to question 1.a.1, C5i found that the Commission has documented its
policies and procedures for performing C&A’s. Staff’s roles and responsibilities
are defined and documented to ensure the process is completed and guidance
from NIST standards and OMB guidance are used. 22 23 The SEC has developed
and implemented policies and procedures to establish the Commission’s C&A
program. 24

Further, C5i found through its review of artifacts provided by OIT (e.g., ST&E,
POA&M, System Security Plan (SSP), and Risk Assessment) that the artifacts
were consistent with guidance and best practices defined in relevant NIST
standards and OMB guidance. The Commission’s C&A’s are performed by an
independent third-party. 25 26

20
   As noted in the Assessment of SEC’s Privacy Program, Report No. 485, dated September 29, 2010, C5i
recommended that OIT should evaluate its risk assessment process for scoring risk to ensure that it
adequately weighs all appropriate factors, including the identification of risk levels by vendors.
21
   The National Institute of Standards and Technology Special Publication 800-53, “Recommended Security
Controls for Federal Information Systems and Organizations.”
22
   The National Institute of Standards and Technology’s 800-37, “Guide for the Security Certification and
Accreditation of Federal Information Systems,; The National Institute of Standards and Technology 800-53,
“Recommended Security Controls for Federal Information Systems and Organizations“; The National
Institute of Standards and Technology 800-53A, and “Guide for Assessing the Security Controls in Federal
Information Systems.”
23
   Office of Management and Budget Circular A-130 “Security of Federal Automated Information Resources.”
24
   SEC Policy II 24-04.10.01 (02.0) Implementing Instruction: IT Security Certification and Accreditation,
June 29, 2005.
25
   The National Institute of Standards and Technology 800-37, “Guide for the Security Certification and
Accreditation of Federal Information Systems”; The National Institute of Standards and Technology 800-53,
“Recommended Security Controls for Federal Information Systems and Organizations“; The National
Institute of Standards and Technology 800-53A, and “Guide for Assessing the Security Controls in Federal
Information Systems.”
26
   Office of Management and Budget Circular A-130 “Security of Federal Automated Information Resources.”
2010 Annual FISMA Assessment                                                              March 3, 2011
Report No. 489
                                               Page 24
                                                                                              Appendix V

Response. In response to question 1 on the OMB template, based on interviews
and reviews of C&A packages and as indicated above, we determined that the
Commission has an established a C&A program. In addition, the SEC is
maintaining a C&A program that is generally consistent with NIST’s and OMB’s
FISMA requirements.

In questions 1.a.2 through 1.a.7, C5i found that the C&A process provides
appropriate risk categories, risk assessments, the selection of appropriate
controls, the testing of controls, and regular monitoring of system risks and the
adequacy of controls. However, as was recommended in Report No. 485, OIT
should evaluate its risk assessment process for scoring risk to ensure that it
adequately weighs all appropriate factors, including the identification of risk levels
by vendors.

Concerning question 1.a.8, the accreditation official is presented with complete
and reliable C&A information 27 related to the risks and controls of the system
which facilitates the authorizing office’s ability to make informed decisions. All
deficiencies are documented in the POA&M which contains the plan for
remediation, responsible party, etc. We provided our response to question 1 as
shown in Table 1 below.

     Table 1: OIG Response to Question 1
       ID                     Questions from OMB Questionnaire                               Response
     1a.       The Agency has established and is maintaining a certification and
               accreditation program that is generally consistent with NIST's and
               OMB's FISMA requirements. Although improvement opportunities                      Yes
               may have been identified by the OIG, the program includes the
               following attributes:
     1.a.1     Documented policies and procedures describing the roles and
               responsibilities of participants in the certification and accreditation
               process.
     1.a.2     Establishment of accreditation boundaries for agency information
               systems.
     1.a.3     Categorizes information systems.
     1.a.4     Applies applicable minimum baseline security controls.
     1.a.5     Assesses risks and tailors security control baseline for each
               system.
     1.a.6     Assessment of the management, operational, and technical
               security controls in the information system.
     1.a.7     Risks to Agency operations, assets, or individuals analyzed and
               documented in the system security plan, risk assessment, or an
               equivalent document.
     1.a.8     The accreditation official is provided (i) the security assessment
               report from the certification agent providing the results of the
               independent assessment of the security controls and

27
   The accreditation official is provided (i) the security assessment report from the certification agent
providing the results of the independent assessment of the security controls and recommendations for
corrective actions; (ii) the plan of action and milestones from the information system owner indicating actions
taken or planned to correct deficiencies in the controls and to reduce or eliminate vulnerabilities in the
information system; and (iii) the updated system security plan with the latest copy of the risk assessment.
2010 Annual FISMA Assessment                                                                  March 3, 2011
Report No. 489
                                                 Page 25
                                                                                       Appendix V

              recommendations for corrective actions; (ii) the plan of action and
              milestones from the information system owner indicating actions
              taken or planned to correct deficiencies in the controls and to
              reduce or eliminate vulnerabilities in the information system; and
              (iii) the updated system security plan with the latest copy of the
              risk assessment.
     Source: OMB FISMA Web Portal




Section 2: Status of Security Configuration
Management
Background. A Security Configuration Management Program consists of the
activities surrounding the maintenance of the security configuration of a system
or network in order to effectively manage risk. The program consists of patch
management and the remediation of vulnerabilities, regular scans of the network
for vulnerabilities, establishment of a standard baseline configuration, full
hardware and software inventory, and a change management process.

The FDCC is an OMB mandate that requires all Federal Agencies to standardize
the configuration (baseline) of approximately 300 settings on every Windows
computer, agency wide. The reason for this standardization is to strengthen the
federal IT’s security by reducing opportunities for hackers to access and exploit
government computer systems. At this time, there are no standard configuration
settings for Macintosh or UNIX based operating systems, but they are reportedly
under review by OMB for possible standardized configuration guidelines.

Patch management is a key component in maintaining the security posture of a
system. Software vendors provide patches and updates to remediate security
vulnerabilities identified in its software. These patches and updates are made
available through the software vendor’s website as they are released. Most
vendors have a set day that patches are released. For example, Microsoft
releases patches/updates on the 2nd Tuesday of each month. If vulnerability is
considered critical, then a vendor may release patches out-of-cycle, based on the
severity of the vulnerability.

NIST SP 800-53, Recommended Security Controls for Federal Information
Systems and Organization provides guidance to government organizations on
flaw remediation, such as patching and updates. The NIST guidance provides
that an organization should identify, report, and correct information system flaws;
test software updates related to flaw remediation for effectiveness and potential
side effects on organizational information systems before installation; and
incorporate flaw remediation into the organizational configuration management
process. 28

28
  The National Institute of Standards and Technology, Special Publication 800-53, Rev 3, “Recommended
Security Controls for Federal Information Systems and Organizations,” August 2009, p. F-124.
2010 Annual FISMA Assessment                                                           March 3, 2011
Report No. 489
                                              Page 26
                                                                                       Appendix V



Results of Assessment. C5i determined that the Commission has developed
and issued formal, written configuration management policy (implementing
instructions) that addresses project configuration management. 29 These
implementing instructions establish uniform policies, authorities, responsibilities,
and procedures for IT security configuration management. 30 Further, the
instruction identify configuration management planning as a process that is
managed by the Configuration Management and Quality Assurance (CM/QA)
Branch and other OIT organizations engaged in Information Technology project
activities and provides a Project Configuration Management Plan template that
describes configuration management activities in terms of configuration
identification, baseline management, configuration control, status accounting,
audits, and configuration management tools. These implementing instructions
are consistent with guidance provided in NIST SP 800-53 Recommended
Security Controls for Federal Information Systems and Organizations. 31

The SEC has implemented appropriate policies to perform oversight and
evaluation of contractor information systems. 32 The Quality Management (QM)
policy “identifies the use of QM for the systematic implementation and use of
planning, control, assurance, and improvement activities to align the business
goals, quality objectives, and process measures. QM may involve providing
information on standards, facilitating a team, or identifying and analyzing a
process. Another expectation of QM is to collect measurement data and lessons
learned as input to other process and product assurance management activities.
QM resources act as consultants in continuous process improvement activities.”
QM has specific objectives, e.g., quality planning, quality control, quality
assurance, and quality improvement, helping to ensure successful
implementation. Effective QM designs, develops, and implements guidance
processes that assure accuracy and integrity. The OIT’s CM/QA Branch is
responsible for conducting the review, control, and enforcement of the process
and product assurance for IT products within OIT as well as agency-wide, to
ensure quality planning and quality control are addressed.

A change request is prepared and initiated by a requester using the enterprise
change control tool. The enterprise change control tool is administered by the
CM/QA Branch. The information that requesters put into the change control tool
generates a System Change Request (SCR). An Operations Configuration


29
   24-03.01.02(01.0) Implementing Instruction Process and Product Assurance Management Configuration
Management and 24-04.04.02 (01.1), Implementing Instruction for IT Security Configuration Management.
30
   OD 24-04.04, IT Security Operations and Communications Security Management Program, SECR 24-04,
Information Technology Security Program.
31
   The National Institute of Standards and Technology Special Publication 800-53 “Recommended Security
Controls for Federal Information Systems and Organizations,” Appendix F-CM, pages F-38 – F46, Control
Family: Configuration Management.
32
   24-1.2 Introduction of New Technology Into the Agency, 24-1.6 Enterprise Architecture, OD 24-03.01
Process and Product Assurance Management, OD 24-03.01.01 Process and Product Assurance
Management: Quality Management.
2010 Annual FISMA Assessment                                                           March 3, 2011
Report No. 489
                                              Page 27
                                                                                     Appendix V

Control Board (O-CCB) 33 has been established to review and approve SCR’s.
Members of the O-CCB include representatives from:

        •   Office of Applications and Software Development;
        •   Central Operations Branch;
        •   Configuration Management and Quality Control Branch (non-voting
            member);
        •   Data and Application Management Branch;
        •   Electronic Data Gathering, Analysis, and Retrieval System (EDGAR);
        •   End User Technology Branch;
        •   Information Security Group;
        •   Network Engineering Branch;
        •   Servers and Storage Branch; and
        •   Technical Assistance Center (TAC). 34

O-CCB members evaluate the SCR’s and assess any IT security implications.
Information system components such as hardware, operating system, utility, and
applications, with IT security features require testing prior to the implementation
of the change into the production environment, which prevent unwarranted
downtime of the production environment.

When a change to an existing information system is proposed, the OIT Security
Group O-CCB member conducts an impact analysis to determine the effects on
the integrity and availability of the information and the information system. This
analysis ensures that changes do not introduce new vulnerabilities or diminish
existing IT security controls. In addition to the impact analysis, IT security testing
and evaluation is conducted for all proposed changes that have IT security
implications and features. Upon completion of testing and after all IT security
implications are evaluated and assessed, the O-CCB approves or disapproves
the proposed changes. The results of the analysis and any IT security testing
and evaluation are documented within the change control tool.
In September 2010, OIT deployed the appropriate FDCC setting to all Windows-
based workstations. However, some requirements were not implemented due to
the incompatibility with OIT’s internal applications and management’s decision
not to implement them.

While compliance with the FDCC standards is required by the OMB for all
desktops and laptops, OMB does allow for exceptions. Per OMB Memorandum
M-09-29 FY2009 Reporting Instructions for the Federal Information Security
Management Act and Agency Privacy Management, 35 any and all exceptions
must be documented and submitted to NIST electronically. As documented in
Report, No. 485, and based on interviews conducted with OIT senior

33
   OD 24-03.01-C01 Operations Configuration Control Board (O-CCB) Charter.
34
   Id.
35
   Office of Management and Budget Memorandum M-09-29 FY2009 Reporting Instructions for the Federal
Information Security Management Act and Agency Privacy Management.
2010 Annual FISMA Assessment                                                         March 3, 2011
Report No. 489
                                             Page 28
                                                                                    Appendix V

management, as of February 2, 2011, OIT’s exceptions list was still outstanding
and OIT had not submitted it to NIST.

Our review of OIT’s exceptions list found some exceptions were annotated with
“management decision” as the justification for the exception. However, OIT staff
could not provide us with support documentation for its decisions. For example,
OIT staff informed us that the FDCC password requirement is an exception.
OIT’s password policy indicates passwords at a minimum must be
and must be changed every              . The FDCC requires passwords to be at a
minimum 12 characters, and the password must be changed every 60 days.
OIT’s decision to non-comply with the FDCC’s password requirement is noted on
the exception report as “management decision” with no additional information.

The SEC has developed policies and procedures for patch management for their
network servers, as well as workstations (e.g., desktops and laptop computer
systems). 36 When vendors release a patch, OIT first tests the patch in its
development environment to ensure the patch will not have an adverse effect on
the SEC’s systems. This is done by applying the patch to a test workstation or to
a server and then verifying the results. OIT uses a commercial product to test
patches and to deploy patches that have been successfully tested.

Once patches are tested and it is determined that they do not adversely affect
the SEC’s systems and applications, a “change” is then submitted to the change
control board for approval. If it is determined that a patch could adversely affect
the SEC’s systems/applications, the security risk posed by not applying the patch
is reviewed by the security group to determine if appropriate compensating
controls exist, e.g., firewalls, intrusion protection etc. Once approved, patches
are “pushed out” to all SEC workstations via a “group policy update” that is
issued.

Administrative notices (see Appendix VIII) are sent prior to the push to ensure
that SEC personnel are aware of the upcoming change to remind staff to keep
their workstations powered on and connected to the network in order for their
machine to be updated. For employees off-site, their machines will automatically
be updated the next time they connect to the SEC network.

We found OIT has documented and incorporated guidance from NIST
requirements in its policies and procedures, however, we determined that they
are not always followed. For example, OIT informed us that patches for high-
level vulnerabilities are generally deployed within          after a patch is
released (OIT policy indicates high-level patches are to be deployed within


36
   OP 24-03.01.02.07 Configuration Control: Change Management, 24-05.04.03 (01.0) Implementing
Instruction: Patch Management, 24-05.04.03.01 UNIX Server Patch Procedure, 24-05.04.03.02 Windows
Server Patch Installation, and 24-05.04.03.03 Security-Related Patch Management for Windows-based
Workstations.
2010 Annual FISMA Assessment                                                         March 3, 2011
Report No. 489
                                            Page 29
                                                                                       Appendix V

                  ) and patches for medium or low-level vulnerabilities are generally
deployed in             . 37

Further, we found significant delays in the deployment of patches. For example,
Microsoft Service Pack 3 was issued by the vendor in May 2008, but was only
recently deployed to the SEC’s systems. NIST 800-53 guidance does not require
that patching be done within a certain time frame; however it does state that “the
organization promptly installs security-relevant software updates (e.g., patches,
services packs, and hot fixes.).” 38

Response. In response to question 2, C5i found that the Commission is
maintaining a configuration management program with documented processes
and procedures for configuration management - hardware and software
inventory, change management, vulnerability scanning, and identified baseline
configuration; however, improvements are needed. As a result, C5i
recommended selecting 2.b.

In response to question 2.a.8, C5i found that the SEC needs to improve its
documentation of deviations from FDCC requirements. In addition, as discussed
in Report No. 485, the SEC does maintain a list of exceptions/deviations from the
common security standards (e.g., FDCC). However, OIT has not submitted its
deviations from FDCC to NIST, as required by OMB Memorandum M-09-29, “FY
2009 Reporting Instruction for the Federal Information Security Management Act
and Agency Privacy Management.” Additionally, OIT does not maintain
supporting documentation to justify “management decisions” to deviate from
FDCC standards.

Regarding question 2.a.11, C5i found that the SEC’s patch management process
is not fully developed and implemented. Additionally, Report No. 485 found that
OIT has not applied patches in a timely and effective manner. For example, OIT
applied Microsoft’s XP Professional Service Pack 3 in calendar year 2010, even
though Microsoft issued the patch in May 2008. In addition, OIT has applied
multiple patches since November 2009; however, at the time the OIG reported to
OMB for FISMA, OIT was unable to provide the exact dates when the patches
were applied. As a result, C5i was unable to determine the timeliness and
effectiveness of OIT’s patch management process. Subsequent to the
November 15, 2010 report to OMB for FISMA, OIT provided C5i a list of all of the
patches applied and was able to determine that OIT’s patch management is
improving. However, we are unable to fully determine the effectiveness of the
SEC’s patch management process. We provided our response to questions 2
and 3 as shown in Table 2 below.


37
  OP24-05.04.03.03, Security-Related Patch Management for Window-based Workstations.
38
  The National Institute of Standards and Technology, Special Publication 800-53, Rev 3, “Recommended
Security Controls for Federal Information Systems and Organizations,” August 2009, p. F-124, Control:
System and Information Integrity, SI-2 Flaw Remediation.
2010 Annual FISMA Assessment                                                           March 3, 2011
Report No. 489
                                              Page 30
                                                                                            Appendix V


     Table 2: OIG Response to Questions 2 and 3 39
           ID                 Questions from OMB Questionnaire                     Response
      2b        The Agency has established and is maintaining a security
                configuration management program. However, the Agency                 Yes
                needs to make significant improvements as noted below.
      2.a.8     FDCC is not fully implemented (OMB) and/or all deviations are         Yes
                not fully documented.

                Comments: As was illustrated in OIG Report No. 485, the SEC
                does maintain a list of exceptions/deviations from the common
                security standards (i.e., FDCC). However, OIT has not
                submitted its deviations list from FDCC to NIST, as required by
                OMB Memorandum M-09-29, “FY2009 Reporting Instruction for
                the Federal Information Security Management Act and Agency
                Privacy Management”. Additionally, OIT does not maintain
                supporting documentation to justify the “management decisions”
                used to deviate from FDCC standards.
      2.a.11    Patch management process is not fully developed (NIST 800-53:         Yes
                CM-3, SI-2).
                Comments: As was noted in Report No. 485, OIT did not apply
                patches in a timely and effective manner. For example, the
                SEC’s OIT applied Microsoft’s XP Professional Service Pack 3 in
                calendar year 2010, even though Microsoft issued the patch in
                May 2008. In addition, OIT has applied multiple patches since
                November 2009; however, OIT is unable to provide the exact
                dates for when the patches were applied. Therefore, we are
                unable to fully determine the effectiveness of the SEC’s patch
                management process.
      3.




      Source: OMB FISMA Web Portal




39
  Table 2 does not reflect all components of question 2. The table identifies areas where OIT needs
improvement.
2010 Annual FISMA Assessment                                                                March 3, 2011
Report No. 489
                                                 Page 31
                                                                                                Appendix V


Section 3: Status of Incident Response &
Reporting Program
Background. Incident response is the documented (through policies and
procedures) and organized approach to addressing and managing the aftermath
of a security breach or attack (also known as an incident). Incidents can include
lost/stolen assets (laptops, Blackberry devices, etc.) or the compromise of an
organizations system (unauthorized access, computer virus, etc.). NIST SP 800-
53 provides the following controls regarding Incident Response:

     Control Family - Incident Response 40
       • IR-1 Incident Response Policy and Procedures
       • IR-2 Incident Response Training
       • IR-3 Incident Response Testing and Exercises
       • IR-4 Incident Handling
       • IR-5 Incident Monitoring
       • IR-6 Incident Reporting
       • IR-7 Incident Response Assistance
       • IR-8 Incident Response Plan

The goal of incident response is to handle the situation in a way that limits
damage and reduces recovery time and costs. Organizations develop an
incident response plan to include policies that define, in specific terms, what
constitutes an incident and provides a step-by-step process that should be
followed when an incident occurs based on the type and severity of the incident.

Organizations have a designated computer incident response team which is a
carefully selected group that, in addition to security and general IT staff, may
include representatives from legal, human resources, and public relations
departments. The teams’ roles and responsibilities are documented, defined and
communicated thoroughly.

The SANS™ (SysAdmin, Audit, Network, and Security) training Institute has
identified the following six steps that should be used to effectively address an
incident. 41

     1. Preparation: The organization educates users and IT staff of the
        importance of updated security measures and trains them to respond to
        computer and network security incidents quickly and correctly.
40
   The National Institute of Standards and Technology’s (NIST), Special Publication 800-53, Rev 3,
“Recommended Security Controls for Federal Information Systems and Organizations”, August 2009,
Pages F-61 – F-65, Control Family: Incident Response.
41
   The SANS (SysAdmin, Audit, Network, Security) Institute was established in 1989 as a cooperative
research and education organization. A range of individuals from auditors and network administrators, to
chief information security officers are sharing the lessons they learn and are jointly finding solutions to the
challenges they face. (Source http://www.sans.org\about).
2010 Annual FISMA Assessment                                                                     March 3, 2011
Report No. 489
                                                   Page 32
                                                                                        Appendix V



     2. Identification: The response team is activated to decide whether a
        particular event is, in fact, a security incident. The team may contact the
        Computer Emergency Response Team Coordination Center, which tracks
        Internet security activity and has the most current information on viruses
        and worms.

     3. Containment: The team determines how far the problem has spread and
        contains the problem by disconnecting all affected systems and devices to
        prevent further damage.

     4. Eradication: The team investigates to discover the origin of the incident.
        The root cause of the problem and all traces of malicious code are
        removed.

     5. Recovery: Data and software are restored from clean backup files,
        ensuring that no vulnerabilities remain. Systems are monitored for any
        sign of weakness or recurrence.

     6. Lessons Learned: The team analyzes the incident and how it was
        handled, making recommendations for better future response and for
        preventing a recurrence.

Results of Assessment. The SEC has implemented policies and procedures 42
to address Incident Response which are well documented and address the NIST
and OMB 43 guidance. C5i’s review of the SEC’s Incident Response Capability
(IRC) Handbook provided evidence of the SEC’s attributes for its incident
response and reporting program. The SEC IRC Handbook was developed to
assist in the mission of the SEC Computer Security Incident Response Team.
The handbook defines processes and procedures, roles and responsibilities,
types of incidents, reporting criteria and timeframes, evidence collection and
handling, event categories and incident severity, etc., as well as post-mortem
procedures, e.g., lessons learned.

The handbook also defines which types of incidents are required to be reported
to the United States Computer Emergency Readiness Team (US-CERT) (based
on OMB A-130 and FISMA) and which do not. The types of incidents that are not
required to be reported are incidents that are self-inflicted, did not result in
unauthorized access, or were not a result of attackers’ actions. All other

42
   OD 24-04.07 Information Security Incident Management, II 24-04.07.01 Computer Security Incident
Response Capability, OP 24-04.07.01.02 Handling Inappropriate Usage Incidents, OP 24-04.07.01.03
Handling of Denial of Service Incidents, OP24-04.07.01.04 Handling Unauthorized Access Incidents, OP 24-
04.07.01.05 Handling Laptop Theft and Tampering Incidents, OP 24-04.07.01.05.A01 Laptop Theft and
Tampering Incident Materials SEC Incident Response Capability Handbook, and II 24-04.07.01.A01 SEC
Incident Response Capability Handbook.
43
   Office of Management and Budget Circular A-130, Appendix III, Security of Federal Automated
Information Resources.
2010 Annual FISMA Assessment                                                            March 3, 2011
Report No. 489
                                              Page 33
                                                                                             Appendix V

incidents require reporting to US-CERT. For further detail, the Incident
Escalation Flow Chart is included in Appendix VIII.

C5i found that that the Commission has incident prevention, detection, response,
and reporting capabilities. This capability features a number of tools including,
but not limited to:

    •    Archer; 44
    •    ArcSight Enterprise Security Manager (ESM); 45
    •    Encase®; 46
    •
    •
    •
    •

44
   Archer Incident Management centralizes and streamlines the complete case management lifecycle for
cyber and physical incidents and ethics violations. Archer’s web-based solution allows the SEC to capture
organizational events that may escalate into incidents, evaluate incident criticality, and assign response
team members based on business impact and regulatory requirements. You can also consolidate response
procedures, manage investigations end-to-end, and report on trends, losses, recovery efforts and related
incidents.
45
   ArcSight delivers real-time event management with ArcSight ESM. As a key component of the ArcSight
SIEM Platform, ArcSight ESM delivers “forensics on the fly,” the ability to drill down from an alert to the
source events that triggered the alert. The advanced real-time correlation capability of ArcSight ESM
identifies the relevance of any given event by placing it within context of who, what, where, when and why
that event occurred and its impact on business risk. ArcSight ESM correlates incoming events with asset
prioritization and vulnerability, user activity, and threat history to deliver accurate and automated
prioritization of security risks and compliance violations. The powerful correlation engine of ArcSight ESM
processes many millions of log entries down to the few critical events that matter.
46
   EnCase® Forensic is the premier computer forensic application available. It gives investigators the ability
to image a drive and preserve it in a forensic manner using the EnCase® evidence file format (LEF or E01),
a digital evidence container validated and approved by courts worldwide. EnCase® Forensic also contains
a full suite of analysis, bookmarking and reporting features. Guidance Software and third party vendors
provide support for expanded capabilities to ensure that forensic examiners have the most comprehensive
  et of utilities.




2010 Annual FISMA Assessment                                                                  March 3, 2011
Report No. 489
                                                 Page 34
                                                                                         Appendix V

In addition, C5i found that local processes and procedures are based on
guidance as described by NIST, 51 OMB 52 and industry best practices. The
incident reporting procedures are widely used, and fully integrated into the SEC’s
IT management processes.

Response. In question 4, we found the SEC has established and is maintaining
an incident response and reporting program that is generally consistent with
NIST’s and OMB’s FISMA requirements based on the description provided
above. C5i found that the SEC has documented policies and procedures for
reporting incidents internally to the US-CERT and law enforcement. These
policies and procedures were developed using guidance and best practices from
NIST and OMB.

Concerning questions 4.a.1 through 4.a.5, as indicated above, C5i determined
through interviews and documentation review that the SEC has established and
is maintaining an incident response program consistent with NIST, OMB’s FISMA
requirements. The program consists of documented policies and procedures for
reporting and responding to incidents, tracking resolution, reporting to US-CERT,
and involving law enforcement when appropriate. We provided our response to
question 4 as shown in Table 3 below.




   The National Institute of Standards and Technology, Special Publication 800-61, Rev 1, “Computer
Security Incident Handling Guide,” March 2008, The National Institute of Standards and Technology Special
Publication 800-72, “Guidelines on PDA Forensics,” November 2004, The National Institute of Standards
and Technology Special Publication 800-83, “Guide to Malware Incident Prevention and Handling,”
November 2005, The National Institute of Standards and Technology Special Publication 800-86, “Guide to
Integrating Forensic Techniques into Incident Response,” August 2006, The National Institute of Standards
and Technology Special Publication 800-101, “Guidelines on Cell Phone Forensics,” May 2007, Carnegie
Mellon University Software Engineering Institute CMU/SEI-2003-HB-001, Organizational Models For
Computer Security Incident Response Teams (CSIRTs), Carnegie Mellon University Software Engineering
Institute (CMU/SEI) CMU/SEI-20030TR-001, State of the Practice of Computer Security Incident Response
Teams (CSIRTs), Carnegie Mellon University Software Engineering Institute CMU/SEI-20030HB-002,
Handbook for Computer Security Incident Response Teams (CSIRTs), Carnegie Mellon University Software
Engineering Institute CMU/SEI-2004-TR-015, Defining Incident Management Processes for CSIRTs,
Carnegie Mellon University Software Engineering Institute CMU/SEI-20050HB-001, First Responders Guide
to Computer Forensics, Sandia National Laboratories (SAND) SAND98-8667, A Common Language for
Computer Security Incidents, Howard and Longstaff.
52
   Office of Management and Budget Circular A-130, Appendix III, Security of Federal Automated
Information Resources and Memorandum M-06-19 Reporting Incidents Involving Personally Identifiable
Information and Incorporating the Cost for Security in Agency Information Technology Investments, dated
July 12, 2006.
2010 Annual FISMA Assessment                                                              March 3, 2011
Report No. 489
                                               Page 35
                                                                           Appendix V


  Table 3: OIG Response to Question 4
    ID            Questions from OMB Questionnaire             Response
  4.a     The Agency has established and is maintaining an       Yes
          incident response and reporting program that is
          generally consistent with NIST's and OMB's FISMA
          requirements. Although improvement opportunities
          may have been identified by the OIG, the program
          includes the following attributes:
  4.a.1   Documented policies and procedures for responding
          and reporting to incidents.
  4.a.2   Comprehensive analysis, validation and
          documentation of incidents.
  4.a.3   When applicable, reports to US-CERT within
          established timeframes.
  4.a.4   When applicable, reports to law enforcement within
          established timeframes.
  4.a.5   Responds to and resolves incidents in a timely
          manner to minimize further damage.
 Source: OMB FISMA Web Portal




Section 4: Status of Security Training Program
Background. Annual Cybersecurity Awareness Training is a FISMA and OMB
Circular A-130, Appendix III, requirement for all federal government employees
and contractors. NIST SP 800-16 Information Technology Security Training
Requirements: A Role and Performance-Based Model provides guidance for
designing a standard training program which includes good computer security
practices, information on latest threats and vulnerabilities, those requiring specific
role-based training, etc. Specialized training is designed for personnel with
significant IT security or system administration responsibilities to enhance their
knowledge and skill-sets.

Results of Assessment. OIT has developed and implemented II 24-04.03.01
Implementing Instruction IT Security Awareness and Training Program and
Operating Directive (OD) 24-04.03 Operating Directive IT Security Human
Resources Security Program documenting the roles and responsibilities for
Security Training and documenting the requirements for SEC staff and
contractors. C5i has reviewed these policies and has determined that they are
thorough and incorporate NIST, FISMA, and OMB guidance, as well as
Cybersecurity best practices.

In 2007, the OIT purchased the Department of State’s Cybersecurity Awareness
Training Module (Joint STATE-USAID (JSAS)). This computer based training
provided standard cyber security training across the federal government and it
had a tracking mechanism to provide user completion statistics. In 2010, OIT
returned to using its in-house Cybersecurity Awareness training module which
provided the office the ability to tailor its training. OIT’s tailored training included
the SEC’s Rules of the Road to ensure employees and contractors were familiar
2010 Annual FISMA Assessment                                                March 3, 2011
Report No. 489
                                        Page 36
                                                                                          Appendix V

with not only Cybersecurity best practices, but all the SEC-specific practices for
handling and protecting information. OIT takes Cybersecurity Awareness training
very seriously. Personnel (employees and contractors) who do not successfully
complete the training by the established deadline, risk having their access
credentials frozen until the training is completed. As of November 15, 2010,
4,732 of 4,778 (99.04 percent) of SEC employees and contractors successfully
completed the training. In addition, 535 of 539 (99.26 percent of users with
special roles completed the specialized “role based access training.”

Response. Concerning questions 4.a.1 through 4.a.5, as described above,
based on our review of the SEC’s policies and procedures surrounding
Cybersecurity Awareness Training, and completing the required training
ourselves, we determined that the SEC has developed and is maintaining an
appropriate training program. The program has documented and implemented
policies and procedures, roles and responsibilities, training statistics are
compiled and maintained to track the completion of the training, and the training
content is clear and in accordance with appropriate federal guidance and industry
best practices.

Below, C5i provided our response to question 5 as shown in Table 4.

 Table 4: OIG Response to Question 5
    ID                Questions from OMB Questionnaire                         Response
  5.a      The Agency has established and is maintaining a security              Yes
           training program that is generally consistent with NIST's and
           OMB's FISMA requirements. Although improvement
           opportunities may have been identified by the OIG, the
           program includes the following attributes:

  5.a.1   Documented policies and procedures for security awareness
          training.
  5.a.2   Documented policies and procedures for specialized training
          for users with significant information security responsibilities.
  5.a.3   Appropriate training content based on the organization and
          roles.
  5.a.4   Identification and tracking of all employees with login privileges
          that need security awareness training.
  5.a.5   Identification and tracking of employees without login
          privileges that require security awareness training.
  5.a.6   Identification and tracking of all employees with significant
          information security responsibilities that require specialized
          training.
 Source: OMB FISMA Web Portal



Section 5: Status of Plans of Actions &
Milestones (POA&M) Program
Background. The Plan of Action and Milestones (POA&M) is a key document in
a C&A package. It is used to document identified weaknesses/vulnerabilities
discovered through security control assessments, security impact analyses, and
2010 Annual FISMA Assessment                                                              March 3, 2011
Report No. 489
                                                Page 37
                                                                                       Appendix V

continuous monitoring activities. A POA&M document will contain information on
the system, the identified vulnerability, severity and risk level of the vulnerability,
applicable control family based on NIST SP 800-53, recommended remediation
and timeline, and responsible party/organization. 53

Results of Assessment. Through interviews and reviews of the Automated
Procurement System (APS) and the General Support System (GSS) POA&M’s,
C5i has determined that the Commission maintains an effective POA&M process.
OIT effectively consolidates agency plans to correct security weaknesses found
during various security reviews, including audits performed by the OIG, system
certification and accreditation, GAO audits, financial system audits, and critical
infrastructure vulnerability assessments. The POA&Ms are tracked using a
compliance spreadsheet which allows for quarterly tracking and updates. OIT’s
POA&M process provides an effective roadmap for continuous security
improvement, assists with prioritizing corrective action and resource allocation,
and is a valuable management and oversight tool.

The SEC’s POA&M process is documented and implemented through SEC
Policy 24-04.10.01 (02.0) IT Security Certification and Accreditation and SEC
Policy 24-04.10, IT Security Compliance Program (01.0). The POA&M process
is centrally managed by OIT, and includes both Commission and contractor
operated systems. The POA&M is developed by the C&A Coordinator, with
assistance from the Chief Information Security Officer (CISO) and OIT Technical
Liaison, and captures the decisions made regarding mitigation and/or acceptance
of each of the risks enumerated in the Risk Assessment Report. The POA&M
describes each risk, lists the selected mitigation (if any) and its cost (in staff or
other resources), assigns responsibility for implementing the mitigation, lists the
completion date for the mitigation activity, and provides justification if the risk is to
be accepted. The C&A Coordinator is responsible for ensuring resources are
applied to POA&M activities to meet the milestones therein. The CISO is
responsible for monitoring progress of mitigation activities described in the
POA&M, and for periodic security compliance reviews of all information systems.
When a security weakness is identified, program officials quickly develop,
implement, and manage POA&Ms for Commission systems. They report their
progress to the Chief Information Officer (CIO) on a quarterly basis, and centrally
track, maintain, and review POA&M activity on a quarterly basis. In addition, OIG
recommendations are routinely incorporated into the POA&M process, and the
POA&M process effectively prioritizes IT security weaknesses to help ensure
significant IT security weaknesses are addressed in a timely manner, and the
appropriate resources are received. OIT staff member’s track POA&M’s by using
the DOJ sponsored CSAM application tool. DOJ externally host the tool and OIT
has used it since March 2009. Screenshots of the various CSAM functions used
by OIT for tracking POA&M’s can be found in Appendix VIII.

53
  The National Institute of Standards and Technology, Special Publication 800-53, Rev 3, “Recommended
Security Controls for Federal Information Systems and Organizations,” August 2009.
2010 Annual FISMA Assessment                                                           March 3, 2011
Report No. 489
                                              Page 38
                                                                                      Appendix V

While OIT is no longer required to submit quarterly updates of its POA&M’s, the
office has made quarterly updates its standard procedure to ensure timely
remediation and the closure of POA&M findings.

Response. Concerning questions 6.a.1 through 6.a.6, as described above, OIT
has established and is maintaining a POA&M program that is generally
consistent with NIST and OMB’s FISMA requirements to track and monitor
known information security weaknesses. OIT has developed policies and
procedures documenting the roles and responsibilities of staff for the C&A
process as it pertains to POA&M’s. Weaknesses documented on a POA&M are
documented and may include vulnerability description, responsible party, severity
of weakness, plan and timeline of remediation, and responsible party. POA&M
items are tracked using CSAM and OIT staff performs quarterly updates to
ensure the accuracy of the POA&M. We provided our response to question 6 as
shown in Table 5 below.

 Table 5: OIG Response to Question 6
    ID               Questions from OMB Questionnaire                      Response
  6.a     The agency has established and is maintaining a POA&M              Yes
          program that is generally consistent with NIST’s and OMB’s
          FISMA requirements and tracks and monitors known
          information security weaknesses. Although improvement
          opportunities may have been identified by the OIG, the
          program includes the following attributes:
  6.a.1   Documented policies and procedures for managing all known
          IT security weaknesses.
  6.a.2   Tracks, prioritizes and remediates weaknesses.
  6.a.3   Ensures remediation plans are effective for correcting
          weaknesses.
  6.a.4   Establishes and adheres to reasonable remediation dates.
  6.a.5   Ensures adequate resources are provided for correcting
          weaknesses.
  6.a.6   Program officials and contractors report progress on
          remediation to CIO on a regular basis, at least quarterly, and
          the CIO centrally tracks, maintains, and independently
          reviews/validates the POA&M activities at least quarterly.
 Source: OMB FISMA Web Portal


Section 6: Status of Remote Access Program
Background. Remote access is the ability to access a computer or a network
from a remote location. Most commonly this type of access is used by
telecommuters (working from home), personnel on travel,
consultants/contractors, and others who are not permanently based at a facility.

Establishing a remote connection requires internet access and, for
network/account security reasons, should require multi-factor authentication – a
user name, personal identification number (PIN) and passcode from a secure
token to establish connection to the network, followed by the users account
domain user name and password to access applications and/or workstations.

2010 Annual FISMA Assessment                                                          March 3, 2011
Report No. 489
                                               Page 39
                                                                                        Appendix V

NIST SP 800-53 provides specific guidance for remote access in the Access
Control section. It specifically states:

        The organization:
           • Documents allowed methods of remote access to the information
              system;
           • Establishes usage restrictions and implementation guidance for
              each allowed remote access method;
           • Monitors for unauthorized remote access to the information system;
           • Authorizes remote access to the information system prior to
              connection; and
           • Enforces requirements for remote connections to the information
              system. 54

Results of Assessment. The SEC has documented policies and procedures
surrounding remote access (authorization, monitoring, and controlling):
Operating Procedure (OP) 24-04.06.03.02 Security Configuration of Remote
Access and OP 24-04.06.03.04 SecurID Token Assignment and 24-
04.06.03.02.T01 Remote Access Checklist as well as the SEC Rules of the
Road, which outline user roles and responsibilities in securely accessing systems
remotely.

Accessing SEC systems remotely can be performed in the following ways:




Accessing email                                       allows the user to read and
respond to their email, but does not allow the users to access any SEC internal
systems, i.e., intranet or other SEC applications (HUB, Momentum). That access
is available only via login to                           . All remote access at the
SEC requires multi-factor authentication – user name, RSA token 55
    , as well as a network password is required. As a security measure for
remote access, all remote sessions will terminate after              of inactivity.
This helps to protect the system from unauthorized access if a user leaves their
workstation unattended for a period of time. Once a session has terminated, the
user will have to re-authenticate to resume their remote session.



54
   The National Institute of Standards and Technology, Special Publication 800-53, Rev 3, “Recommended
Security Controls for Federal Information Systems and Organizations,” August 2009, p. F-14, Control:
Access Control, AC-17 Remote Access.
55
   An RSA token or SecurID is a two-factor authentication mechanism.
2010 Annual FISMA Assessment                                                            March 3, 2011
Report No. 489
                                              Page 40
                                                                      Appendix V

Through interviews conducted, we found that OIT documents, monitors, and
controls all methods of remote access (e.g., dial-up, Internet) to the information
system including remote access for privileged functions. Appropriate
organization officials authorize each remote access method for the information
system and authorize only the necessary users for each access method. All
users who need remote access must complete and submit the Rules of Behavior
for Remote Access. This document must be approved in writing by the user,
users' supervisor, and Information System Security Officer. The approved
document is delivered to the OIT Security for processing.

The SEC requires that sensitive files transmitted across public networks or are
stored on mobile devices and removable media such as compact discs and flash
drives, to be encrypted. OIT implements information flow control policies and
enforcement mechanisms to control the flow of information between designated
sources and destinations (e.g., networks, individuals, devices) within information
systems and between interconnected systems. Firewalls and routers are used to
restrict information flows between GSS and interconnected systems. The SEC
implements flow control through user roles, Secure Sockets Layer (SSL)
connections, and individual accounts.

Underlying network protocols provide confidentiality and integrity protection, as
do higher-layer cryptographic mechanisms (such as SSL for client/server
communications). Application components are segregated, and each segment of
the system is located on a single server. The GSS supports authorized remote
login to the SEC’s networks via the virtual private network and Citrix, both of
which provide encryption during transmission over the internet.

Response. Concerning questions 7.a.1 - 7.a.7, the SEC has well documented
and communicated remote access policies and procedures that comply with
NIST and OMB guidance for identification and multi-factor authentication,
protection of the information via encryption, firewalls, and monitoring remote
connections. Our response to question 7 is shown in Table 6 below.




2010 Annual FISMA Assessment                                          March 3, 2011
Report No. 489
                                     Page 41
                                                                                     Appendix V

  Table 6: OIG Response to Question 7
   ID               Questions from OMB Questionnaire                      Response
   7.a     The Agency has established and is maintaining a remote           Yes
           access program that is generally consistent with NIST’s
           and OMB’s FISMA requirements. Although improvement
           opportunities may have been identified by the OIG, the
           program includes the following attributes:
   7.a.1   Documented policies and procedures for authorizing,
           monitoring, and controlling all methods of remote access.
   7.a.2   Protects against unauthorized connections or subversion
           of authorized connections.
   7.a.3   Users are uniquely identified and authenticated for all
           access.
   7.a.4   If applicable, multi-factor authentication is required for
           remote access.
   7.a.5   Authentication mechanisms meet NIST Special
           Publication 800-63 guidance on remote electronic
           authentication, including strength mechanisms.
   7.a.6   Requires encrypting sensitive files transmitted across
           public networks or stored on mobile devices and
           removable media such as CDs and flash drives.
   7.a.7   Remote access sessions are timed-out after a maximum
           of 30 minutes of inactivity after which re-authentication is
           required.
  Source: OMB FISMA Web Portal


Section 7: Status of Account and Identity
Management Program
Background. Account and Identity Management is the process of how
personnel are identified and authorized across computer networks (logical
access) and facilities (physical access). It covers issues such as how users are
given an identity, the protection of that identity, and the technologies supporting
that protection (e.g., network protocols, digital certificates, passwords, etc.).

For physical access, an ID badge or cardkey are the most common forms;
however biometrics are also used. The badge generally has a photograph of the
individual and their location of employment. The badge also has a serial number
assigned to it that is entered into the access system with the name of the
assignee when issued. The badge is then scanned into a reader that authorizes
and records the person’s entry and sometimes exit, into a facility. The access
badges can also be programmed based on the individuals job function. For
example, access to a datacenter or secure operations center would only be
granted to those individuals who work in that area.

For logical access, users are given a unique identifier, usually their first initial and
last name – that will be used to access computers, networks, and/or applications
based on the individuals role. For both logical and physical access,
organizations have developed their own processes and procedures to
communicate to the various areas (security and network operations) the level of

2010 Annual FISMA Assessment                                                         March 3, 2011
Report No. 489
                                                Page 42
                                                                                            Appendix V

access an individual will require. This is usually handled through and electronic
request or form generated by the supervisor.

In August, 2004, Homeland Security Presidential Directive-12 (HSPD-12)
Policies for a Common Identification Standard for Federal Employees and
Contractors was published to establish consistent identity and access controls
throughout the federal government. This directive was a result of inconsistent
identity management throughout federal agencies and the need to provide
“Secure and reliable forms of identification” 56 for physical and logical access.

         There are wide variations in the quality and security of identification
         used to gain access to secure facilities where there is potential for
         terrorist attacks. In order to eliminate these variations, U.S. policy is
         to enhance security, increase Government efficiency, reduce
         identity fraud, and protect personal privacy by establishing a
         mandatory, Government-wide standard for secure and reliable
         forms of identification issued by the Federal Government to its
         employees and contractors (including contractor employees). This
         directive mandates a federal standard for secure and reliable forms
         of identification. 57

Results of Assessment. Through our interviews and reviews, C5i found that the
SEC has established an entity-wide Account and Identity Management program
that is generally consistent with NIST and OMB’s FISMA requirements. 58 Below
are procedures provided to the IT specialist and/or administrative specialist at the
SEC to establish physical and logical access.

Logical Access

The procedures for establishing, terminating, or modifying a Local Area Network
(LAN) account are documented in SEC Operating Procedure 24-05.01.02.02
LAN Account Creation, Modification, Termination, and Transfer. All requests for
creating new accounts, making account modifications (name change, change in
access levels, etc.), and the termination of accounts are handled by completing
the OP Template 24-05.01.02.T01 Request for Account Creation, Modification,
Termination, or Transfer. Pertinent IT specialists or the office/division’s
administrative contact is responsible for completing and submitting the form to
the TAC, LAN account management group. Once approved, the TAC will set-up
an account for the user (based on the request) and provide the user with access

56
   Homeland Security Presidential Directive-12, August 27, 2004, Section 3.
57
   HSPD-12 Abstract, Source: http://www.dhs.gov/xabout/laws/gc_1217616624097.shtm
58
   Federal Information Processing Standard Publication 201-1 Personal Identity Verification (PIV) of Federal
Employees and Contractors, March 2006, The National Institute of Standards and Technology, Special
Publication 800-73-1 Interfaces for Personal Identity Verification, March 2006, The National Institute of
Standards and Technology, Special Publication 800-76-1 Biometric Data Specification for Personal Identity
Verification, January 2007, The National Institute of Standards and Technology, Special Publication 800-79
Guidelines for the Certification and Accreditation of PIV Card Issuing Organizations, July 2005.
2010 Annual FISMA Assessment                                                                March 3, 2011
Report No. 489
                                                Page 43
                                                                                 Appendix V

credentials (e.g. user name and temporary password) which the user will be
prompted to change upon their first login. When a user receives login
credentials, if requested they will also receive their RSA token for remote access
and the instructions on how to activate the token, set-up the PIN, and remote
access procedures.

Access to SEC specific applications (e.g., HUB, Momentum, etc.) is handled by
individual office/division application system owners and is based on the users’
role in the SEC. LAN accounts are also created for contractors working at the
SEC and are requested and authorized by the Contacting Office Technical
Resource (COTR) for each specific contract. Each month OIT staff conducts an
audit of user accounts that are not active for SEC employees and contractors.
An IT specialist reviews the list of the inactive employee accounts and
designated COTRs are sent a list of inactive accounts for assigned contractors.
The TAC is advised about the status of the list.

Accounts that are inactive for            are put into a “dormant” status and the
user will only be able to log in only to emails. Only the TAC can fully reactivate
dormant accounts. Accounts having no activity for                are disabled.
Though the user’s name still appears on the system, the user cannot log into the
network. Once an account is inactive for              , an IT specialist is contacted to
determine whether to keep the account in a disabled status or delete it. A good
reason an IT specialist should not delete an account would be the determination
to continue monitoring a person’s emails. Account terminations are handled in
the exact same manner as when an account is established. The account is
disabled on the user’s (employee or contractor’s) date of separation, as
documented by the IT specialist or administrative contact. In the event of
involuntary terminations, the TAC and OIT security are immediately notified and
the account is terminated.

Through a separate audit performed by the SEC ICFR group, it was discovered
that active directory accounts for 14 separated employees were not terminated,
and two of those accounts were identified as being logged into after the
employees’ termination dates. 59 Login credentials that are not properly disabled
at the time of separation/termination of a user pose a serious security risk. The
credentials can be used by a malicious party to gain access to sensitive SEC
data and compromise the system. If the terminated/separated user had elevated
privileges, e.g., local administrative rights, there would be an even greater threat
of serious compromise or damage to the SEC data/network due to the higher
level of access.

The level of access given to a user is specific to their job function and is known
as “least privilege.” Least privilege is defined by NIST SP 800-53 as “allowing
only authorized accesses for users (and processes acting on behalf of users)
which are necessary to accomplish assigned tasks in accordance with
59
     SEC A-123 FY 2010, Notification of Finding and Recommendation GSS-NFR 08.
2010 Annual FISMA Assessment                                                     March 3, 2011
Report No. 489
                                              Page 44
                                                                                            Appendix V

organization missions and business functions.” 60 We found there are a large
number of users at the SEC who have escalated privileges, specifically local
administrative access 61 on a permanent basis, but whose job function does not
necessarily require that function. Having local administrative access allows
users to install software on their computer without any oversight of OIT and make
configuration changes, etc. It is also a significant risk to SEC systems if the
user’s account is compromised by a malicious party, as they will have the ability
to infiltrate further into the network. There are reasons for granting temporary
admin access, e.g., 90 minutes, to perform a function such as installing
Cyberscope to perform OMB reporting, but this privilege should have a finite
timeframe.

The HSPD-12 program referenced earlier in this section applies not only to
physical access, but is also intended for logical access. When the program is
fully implemented, personnel will not be able to access information systems –
network, email, etc., without their card scanned and input of their specific HSPD-
12 password. This is a different password then the current network and
application passwords that employees use.

In order for this to be implemented, the card issuance must be completed and the
acquisition of the equipment completed and deployed. For users who do not
work in the field or remotely, their system will be equipped with either a keyboard
with a card scanner or a scanner that connects to their equipment via USB port.
However, there are users at the SEC (employees and contractors) who are not
located at SEC offices who always access the SEC systems remotely, and those
solutions are not feasible. OIT is currently researching solutions for the remote
issues.

Physical Access

The current badge process for employees and contractors is to complete the
pertinent forms – personal data form, release of credit, etc. In order for the forms
to be processed, they must be sponsored. Employees and contractors requiring
access for a period greater than six months must get a PIV card. This
employee/contractor's name must be provided by an Office of Human Resources
(OHR) Talent Management for new employees or the payroll system for current
employees. Contractor requests come from the COTR. Both OHR and the
COTR are responsible for getting the documents and providing them to OHR
Personnel Security for the individual to be sponsored. Once sponsored, OHR
Personnel Security will review the Office of Personnel Management’s Personnel
Investigation Processing System's application to verify if the person has a

60
   The National Institute of Standards and Technology, Special Publication 800-53, Rev 3, Recommended
Security Controls for Federal Information Systems and Organizations, August 2009, p. F-9, Control: Access
Control, AC-6, Least Privilege.
61
   Local Administrative access provides users with higher privileges on their workstations than normal users.
This level of privilege allows the user to perform functions, such as installation of third party software,
removing or turning off settings, e.g., forced encryption, etc.
2010 Annual FISMA Assessment                                                                March 3, 2011
Report No. 489
                                                Page 45
                                                                                        Appendix V

background investigation on record that meets the SEC's minimum requirements.
If they do, the file is adjudicated and the employee is approved for a badge. If
not, then the employee/contractor's fingerprints are sent to the FBI for verification
and then the adjudicator reviews the results and sends out the rest of the
documentation to complete the cross agency verification. Once all results are
received, the adjudicator reviews the information and makes a determination for
suitability for employment at the agency. Once the person has been successfully
adjudicated then the person is authorized to get their badge and obtain access to
the SEC network.

All access badges are programmed with access privileges based on the
individual roles and responsibilities. NIST SP 800-53 provides guidance on
physical access authorization and control.

        Physical Access Authorizations - The organization:
           a. Develops and keeps current a list of Personnel with authorized
              access to the facility where the information system resides ) except
              for those areas within the facility officially designated as publicly
              accessible);
           b. Issues authorization credentials; and
           c. Reviews and approves the access list and authorization
              credentials, removing from the access list personnel no longer
              requiring access. 62

        Physical Access Control - the organization:
           a. Enforces physical access authorizations for all physical access
              points (including designated entry/exit points) to the facility where
              the information system resides (excluding those areas within the
              facility officially designated as publicly accessible);
           b. Verifies individual access authorizations before granting access to
              the facility;
           c. Controls entry to the facility containing the information systems
              using physical access devices and/or guards;
           d. Controls access to areas officially designated as publicly accessible
              in accordance with the organizations assessment of risk;
           e. Secures keys, combinations, and other physical access devices;
           f. Inventories physical access devices; and
           g. Changes combinations and keys when keys are lost, combinations
              are compromised, or individuals are transferred or terminated. 63

The SEC is currently implementing the HSPD-12 card rollout through an
interagency agreement with the General Services Administration (GSA) for the

62
   The National Institute of Standards and Technology, Special Publication 800-53, Rev 3, “Recommended
Security Controls for Federal Information Systems and Organizations,” August 2009, p. F-76, Control:
Physical and Environmental Protection, PE-2 Physical Access Authorizations.
63
   Id. at p. F-77
2010 Annual FISMA Assessment                                                            March 3, 2011
Report No. 489
                                              Page 46
                                                                       Appendix V

express purposes of using the GSA HSPD-12 Shared Services Solution,
consisting of Enrollment/Activation Stations for sending data (i.e., scanned
fingerprint images with authentication information) to request issue of Personal
Identity Verification (PIV) credentials, also referred to as an HSPD-12 card. The
SEC selected the GSA Shared Service solution because the cost to acquire the
technology to support the program would have been expensive. In addition, the
GSA Shared Service solution provided the equipment, personnel, and has
already acquired the equipment and technology needed to implement the
program. Further, the GSA Shared Service solution had completed a certification
and accreditation of its system.

For an employee or contractor that requires an HSPD-12 badge, the
employee/contractor is sponsored into the GSA USAccess system for the
processing of the card, and if needed, a background investigation is initiated –
this applies to employees and contractors. Once the investigation is successfully
completed, the individual will receive notification that they can begin the
enrollment process for their card. This notification includes instructions on how
to register for the enrollment, locations and hours, and the ability to schedule the
appointment.

As of the date of our interviews (September 20, 2010), the initial card rollout was
estimated to be completed by September 30, 2010. However, the date has since
been revised to June 30, 2011 and this change was reported to OMB.

Response. Concerning question 8b, C5i found that the SEC has implemented
and is maintaining an Identity and Access management program that has
documented policies and procedures; however through our interviews and
review, we found three areas of improvement:

In response to question 8.a.7, C5i found that logical accounts are not properly
terminated when users no longer require access. In addition, we found that the
SEC’s Internal Control for Financial Reporting group identified Active Directory
(AD) network accounts for separated/terminated employees have not been
disabled in a timely manner. Specifically, it was found that 14 separated SEC
employees AD network accounts had been disabled. Two if these employees
AD network accounts were identified as having been logged into after the
employee’s SEC termination date and a disabled AD account was identified as
being logged into after another SEC employee’s terminated date.

In response to question 8.a.9, C5i found that the SEC has not adequately
planned for implementation of PIV for Logical Access. In addition, we found that
the SEC has not completed its rollout of the PIV badge to all employees and
contractors, as required by the HSPD-12 directive. As a result, all employees
and contractors are not utilizing the PIV badge for physical access and logical
access. Further, a complete rollout of technology to support the PIV program
has not been completed.

2010 Annual FISMA Assessment                                           March 3, 2011
Report No. 489
                                     Page 47
                                                                                     Appendix V



Regarding question 8.a.10, C5i found that privileges granted are excessive or
result in capability to perform conflicting functions. Additionally, we found that the
SEC has an excessive number of persons who have been granted administrative
access on a permanent basis but whose job function may not require this level of
privilege on an indefinite basis. We provided our response to question 8 as
shown in Table 7 below.

  Table 7: OIG Response to Question 8
     ID               Questions from OMB Questionnaire                       Response
  8.b      The Agency has established and is maintaining an account            Yes
           and identify management program that identifies users and
           network devices. However, the Agency needs to make
           significant improvements as noted below.
           If b. checked above check areas that need significant
           improvement:
  8.a.7    Accounts are not properly terminated when users no longer           Yes
           require access (NIST 800-53, AC-2).
           Comments: The SEC’s Internal Control for Financial
           Reporting group identified Active Directory (AD) network
           accounts for separated/terminated employees have not been
           disabled in a timely manner. Specifically, it was found that 14
           separated SEC employees AD network accounts had been
           disabled. Two if these employees AD network accounts were
           identified as having been logged into after the employee’s
           SEC termination date and a disabled AD account was
           identified as being logged into after another SEC employee’s
           terminated date.
   8.a.9   Agency has not adequately planned for implementation of PIV         Yes
           for logical access (HSPD 12, FIPS 201, OMB M-05-24, OMB
           M-07-06, and OMB M-08-01).
           Comments: The SEC has not completed its rollout of the PIV
           badge to all employees and contractors, as required by the
           HSPD-12 directive. As a result, all employees and contractors
           are not utilizing the PIV badge for physical access and logical
           access. Further, a complete rollout of technology to support
           the PIV program has not been completed.
   8.a.10  Privileges granted are excessive or result in capability to         Yes
           perform conflicting functions (NIST 800-53, AC-2, and AC-6).
           Comments: The SEC has an excessive number of
           persons who have been granted administrative access
           on a permanent basis but whose job function may not
           require this level of privilege on an indefinite basis.
  Source: OMB FISMA Web Portal


Section 8: Status of Continuous Monitoring
Program
Background. Continuous monitoring is the process of tracking the security state
of an information system on an ongoing basis and maintaining the security
authorization for the system over time. Understanding the security state of
information systems is essential in highly dynamic environments of operation with
changing threats, vulnerabilities, technologies, and missions/business processes.
Network vulnerability assessments, Intrusion Detection System (IDS), Intrusion
2010 Annual FISMA Assessment                                                            March 3, 2011
Report No. 489
                                               Page 48
                                                                                        Appendix V

Prevention System (IPS), and C&A are all components of a continuous
monitoring program. NIST SP 800-53 provides guidance on continuous
monitoring, specifically:

         Security Assessment and Authorization, CA-7 Continuous Monitoring - the
         organization establishes a continuous monitoring strategy and implements
         a continuous monitoring program that includes:

                     a. A configuration management process for the
                        information systems and its constituent components;
                     b. A determination of the security impact of changes to
                        the information system and environment of operation;
                     c. Ongoing security control assessments in accordance
                        with the organizational continuous monitoring
                        strategy;
                     d. Reporting the security state of the information system
                        to appropriate organizational officials;
                     e. Employs an independent assessor or assessment
                        team to monitor the security controls in the
                        information system on an ongoing basis; and
                     f. Plans, schedules, and conducts assessments to
                        ensure compliance with all vulnerability mitigation
                        procedures. 64

Results of Assessment. Through interviews and documentation review, C5i
found that the SEC has an entity-wide continuous monitoring program that
assesses the security state of information systems that is generally consistent
with NIST and OMB’s FISMA requirements; however, improvements need to be
made. Specifically, OIT’s continuous monitoring procedures should be improved
to provide sufficient detail regarding when patches have been implemented. In
addition, patches are not applied in a consistent manner as noted in Report No.
485. C5i noted that the SEC documented many policies addressing the various
facet of continuous monitoring.

     •   Patch Management: 24.05.04.03.01 UNIX Server Patch
         Management, 24.05.04.03.02 Windows Server Patch Installation,
         24.05.04.03.03 Security-Related Patch Management for Windows-
         based Workstations
     •   C&A: 24-04, Information Technology Security Program, 24-04.10
         IT Security Compliance Program, Implementing Instruction: IT
         Security Certification and Accreditation, 24-04.10.02 Implementing
         Instruction: IT Security Risk Management.


64
  The National Institute of Standards and Technology, Special Publication 800-53, Rev 3, “Recommended
Security Controls for Federal Information Systems and Organizations,” August 2009, page F-37, Control:
Security Assessment and Authorization, CA-7 Continuous Monitoring.
2010 Annual FISMA Assessment                                                            March 3, 2011
Report No. 489
                                              Page 49
                                                                              Appendix V

As noted in the Section 1 of this report, C5i found that the SEC C&A process
adequately provides appropriate risk categories, adequate risk assessments,
selection of appropriate controls, adequate testing of controls, and regular
monitoring of system risks and the adequacy of controls.

OIT is responsible for performing monthly vulnerability scans on the SEC
network, as well as performing IDS and IPS functions. For vulnerability
scanning, the SEC recently upgraded their vulnerability scanning tool from
                                        , both are commercial-off-the-shelf
products and are widely used in government and commercial enterprises. For
intrusion prevention and detection, OIT uses               as its   , and
            as its

OIT has documented policies and procedures for Patch Management; however,
as previously mentioned in the SEC OIG’s Assessment of the SEC’s Privacy
Program Report 65 and in Section 2 of this report, patches are not being deployed
in a timely manner and OIT is unable to provide documentation and/or evidence
of when a patch was actually deployed. Moreover, as noted in Section 2 of this
report, SEC patching policies and procedures are not being fully adhered to and
there is insufficient documentation supporting the implementation of patches.

Response. In response to question 9.a.2, C5i found that the SEC’s continuous
monitoring procedures are not fully developed or consistently implemented.
Also, C5i found that OIT’s continuous monitoring procedures do not provide
sufficient detail regarding when patches have been implemented. In addition,
patches are not applied in a consistent manner as noted in the Report No. 485.
Concerning question 9b, C5i found that the SEC has established an agency-wide
continuous monitoring program to assess, however improvement is needed. We
provided our response to question 9 as shown in Table 8 below.




65
  SEC OIG Assessment of SEC’s Privacy Program, Report No. 485, September 29, 2010.
2010 Annual FISMA Assessment                                                    March 3, 2011
Report No. 489
                                         Page 50
                                                                                        Appendix V

         Table 8: OIG Response to Question 9
         ID           Questions from OMB Questionnaire                    Response
     9b        The Agency has established an entity-wide continuous          Yes
               monitoring program that assesses the security state of
               information systems. However, the Agency needs to make
               significant improvements as noted below.
              If b. checked above, check areas that need significant
              improvement
      9.b.2   Continuous monitoring procedures are not fully developed,      Yes
              sufficiently detailed, or consistently implemented.
              Comments: OIT’s continuous monitoring procedures do
              not provide sufficient detail for when patches have been
              implemented. In addition, patches are not applied in a
              consistent manner as noted in the OIG’s Report No. 485.
     Source: OMB FISMA Web Portal


Section 9: Status of Contingency Planning
Program
Background. Continuity of Operations/Disaster Recovery (COOP/DR) is the
processes, policies and procedures for re-establishing operations for an
enterprise after a man-made or natural disaster. These procedures include, but
are not limited to: re-activation of systems; communication to personnel; alternate
work location for personnel; roles and responsibilities; and utilities
(telecommunications, power, water). NIST SP 800-53 provides guidance on with
a specific control for Contingency Planning which includes:

     •    CP-1: Contingency Planning Policy and Procedures
     •    CP-2: Contingency Plan
     •    CP-3: Contingency Training
     •    CP-4: Contingency Plan Testing and Exercises
     •    CP-6: Alternate Storage Site
     •    CP-7: Telecommunications Service
     •    CP-9: Information Service Backup
     •    CP-10 Information system Recovery and Reconstitution 66

Organizations perform tests of their disaster recovery plans, usually bi-annually,
to ensure the full functionality of the plan and the fail-over systems, and
document any problems for remediation.

Results of Assessment. C5i found that the SEC has established and is
maintaining an entity-wide business COOP/DR that is consistent with NIST,
FISMA, and OMB requirements; as well is consistent with the Federal Continuity
Directive 67 (FCD) for developing continuity plans and programs. OIT has
66
   The National Institute of Standards and Technology, Special Publication 800-53, Rev 3, “Recommended
Security Controls for Federal Information Systems and Organizations,” August 2009, p. F-47, Control:
Contingency Planning.
67
   Federal Continuity Directive (FCD), Federal Executive Branch Continuity Program and Requirements,
February 2008.
2010 Annual FISMA Assessment                                                            March 3, 2011
Report No. 489
                                                Page 51
                                                                                        Appendix V

developed and implemented OIT-00047-001.0 Disaster Recovery Planning
Procedures, 24-04.09 IT Security Business Continuity Management Program,
SEC Implementing Instruction 24-04.09.01 (02.0) System Business Impact
Analysis, and OIT-00003-001.0 Disaster Recovery Planning Policy to provide the
authority and guidance necessary to reduce the impact of a disruptive event or
disaster. These documents were reviewed and are compliant with appropriate
Federal guidance.

C5i found that the SEC’s continuity planning facilitates the performance of
essential functions during all-hazards, emergencies and other situations that may
disrupt normal operations. The COOP/DR plans are used to conduct
assessments and track system performance at all times and under all conditions,
to include natural disasters, man-made incidents, terrorism, and war. Further, C5i
found that the SEC COOP/DR program meets the requirements of the FCD.
FCD 1 68 requires that essential functions be performed continuously following a
disaster, national emergency or other emergency event, or continuity of
operations; and disaster recovery plan procedures must support their resumption
within 12 hours or less after an event. In addition, COOP/DR capabilities must
support continued performance of the functions for up to 30 days or until normal
operations can be resumed. Given the requirements and parameters established
in FCD 1, the Recovery Time Objectives for SEC applications are as follows:

     •   Applications supporting SEC Primary Missions Essential Functions
         (PMEF) -                 ;
     •   Applications supporting SEC Mission Essential Functions (MEF) -
                         ; and
     •   All other applications -               .

The critical activities that are performed by the SEC, especially after a disruption
of normal activities, are divided into three categories of essential functions:
National Essential Functions (NEF), PMEF, and MEF. The SEC Office of the
Executive Director (OED) has completed an analysis of its systems and has
identified them according to the essential functions they perform. The specific
Federal government and SEC requirements requiring and defining the
performance of business continuity and disaster recovery are contained in the
policy and procedural references:

     •   Federal Continuity Directive 1 (FCD 1), Federal Executive Branch
         Continuity Program Requirements, February 2008;
     •   Operating Directive (OD) 24-04.09 IT Security Business Continuity
         Management Program; and
     •   National Institute of Standards and Technology (NIST) Special
         Publication (SP) 800-30; Risk Management Guide for Information
         Technology Systems, July 2002.
68
  Federal Continuity Directive 1 (FCD 1), Federal Executive Branch Continuity Program and Requirements,
February 2008, p. 1.
2010 Annual FISMA Assessment                                                            March 3, 2011
Report No. 489
                                              Page 52
                                                                     Appendix V

C5i verified that the agency has developed and performed an overall Business
Impact Assessment (BIA) process. BIAs must be completed for all systems
currently designated by the SEC as applications reportable under FISMA. In
addition, BIAs must be completed for any new applications, which will be
reportable under FISMA, and during the system’s design phase. The BIA for the
“Tips, Complaints, and Referrals Repository” system, dated March 12, 2010 was
reviewed.

The specific Federal government and SEC requirements requiring and defining
the performance of BIAs are contained in the policy and procedural references:
SEC Implementing Instruction 24-04.09.01 (02.0), System Business Impact
Analysis, and NIST SP 800-34, Contingency Planning Guide for Information
Technology Systems, June 2002.

C5i found that the SEC performs the development and documentation of division,
component, and IT infrastructure recovery strategies, plans and procedures. It
was confirmed that contingency planning and disaster recovery exercises were
performed in April and November 2010, which included the fail-over test results.
An “Exercise After Action” report is prepared once the exercise is completed to
included full documentation of the outcome of each phase of the exercise and
includes “lessons learned” for issues or problems that occurred.

The SEC continues the performance of regular ongoing testing and exercising of
its continuity/disaster recovery plans to determine their effectiveness and to
maintain current plans. C5i has verified that the Critical systems have alternate
processing sites and the training, testing, and exercises have been developed.

Response. Concerning questions 10.a.1 through 10.a.7, C5i found that the SEC
has an entity-wide disaster recovery program that includes documented policies
and procedures in compliance with federal guidance. Testing of the plan is
conducted twice per year with results documented. We provided our response to
question 10 as shown in Table 9 below.




2010 Annual FISMA Assessment                                         March 3, 2011
Report No. 489
                                    Page 53
                                                                                     Appendix V

  Table 9: OIG Response to Question 10
     ID                Questions from OMB Questionnaire                      Response
    10.a     The Agency established and is maintaining an entity-wide          Yes
             business continuity/disaster recovery program that is
             generally consistent with NIST’s and OMB’s FISMA
             requirements. Although improvement opportunities may have
             been identified by the OIG, the program includes the
             following attributes:
   10.a.1    Documented business continuity and disaster recovery policy
             providing the authority and guidance necessary to reduce the
             impact of a disruptive event or disaster.
   10.a.2    The agency has performed an overall Business Impact
             Assessment.
   10.a.3    Development and documentation of division, component, and
             IT infrastructure recovery strategies, plans and procedures.
   10.a.4    Testing of system specific contingency plans.
   10.a.5    The documented business continuity and disaster recovery
             plans are ready for implementation.
   10.a.6    Development of training, testing, and exercises (TT&E)
             approaches.
   10.a.7    Performance of regular ongoing testing or exercising of
             continuity/disaster recovery plans to determine effectiveness
             and to maintain current plans.
  Source:   OMB FISMA Web Portal


Section 10: Status Agency Program to Oversee
Contractor Systems
Background. Outside contractors play an integral role in the federal government
operations, as well as in commercial enterprises. Contractors can provide a wide
range of services from staff augmentation to technology system development,
operation and maintenance. Contractors are subject to the same rules of
conduct as employees of the organization they are brought in to support, and
therefore must adhere to all policies and procedures. Contractor systems
deployed in the federal government are subject to a full C&A prior to
implementation and are also governed by policies and procedures of the agency
for compliance with NIST, FISMA, and OMB guidance.

Results of Assessment. C5i found that the SEC ensures that contractors or
other entities of information system services employ adequate security controls in
accordance with applicable federal laws, directives, policies, regulations,
standards, guidance, and established service level agreements. Interviews were
conducted with several persons responsible for managing and administering the
SEC’s information systems security program, and a review of policies and
procedures provided by OIT to verify compliance. C5i also determined that the
SEC has implemented appropriate policies 24-1.2 Introduction of New
Technology Into the Agency, 24-1.6 Enterprise Architecture, OD 24-03.01
Process and Product Assurance Management, OD 24-03.01.01 Process and
Product Assurance Management: Quality Management to perform oversight and
evaluation of contractor information systems.

2010 Annual FISMA Assessment                                                         March 3, 2011
Report No. 489
                                               Page 54
                                                                      Appendix V

C5i found that there are detailed procedures developed, documented, and
effectively implemented to reduce risks from outsourced services by contractors
of the agency, or other organization(s) on behalf of the agency, that explicitly
address the need for effective security controls at the service provider.

The SEC performs oversight and evaluation to ensure information systems used
or operated by a contractor of the agency, or other organization(s) on behalf of
the agency, meet the requirements of FISMA, OMB, and NIST guidelines, as well
as National Security Policy. Further, OIT maintains an inventory (Excel
spreadsheet) of major information systems, including systems operated by
contractors on the agencies behalf. The system inventory was reviewed and is
well documented with the name of the system, system owner, and whether or not
the system is SEC operated or operated by a contractor on behalf of the
commission. The SEC authorizes all connections from the information system to
other information systems outside of the accreditation boundary and
monitors/controls the system interconnections on an ongoing basis. Appropriate
organizational officials approve the information system interconnection
agreements, Security Plans and procedures to verify reduction of risk of
introducing a security flaw or breach to the organization.

These agreements are comprehensive and include detailed information
regarding the purpose of the connection, the responsibilities of each party, a
description of the systems or networks to be interconnected, procedures for
responding to security incidents, disaster and contingency plans, funding
considerations, and numerous administrative details. As part of our review, we
examined Memoranda of Understanding (MOU’s) and an Interconnection
Security Agreement (ISA) between the SEC and DOJ, Department of Interior,
and other government and contractor entities, that meet the requirements of
NIST guidelines and OMB’s FISMA requirements.

Response. In response to question 11, C5i found that the SEC has established
and maintains a program to oversee systems operated on its behalf by
contractors. Concerning questions 11.a.1 through 11.a.6, C5i found that the
SEC has established and is maintaining a program to oversee systems operated
on its behalf by contractors and/or other entities. There are documented policies
and procedures that comply with NIST, FISMA, and OMB guidance. Based on
information provided by OIT, but not verified by C5i through testing, an inventory
of systems is maintained and kept up to date by OIT. All interfaces are identified
and MOU’s and ISA’s are in place. We provided our response to question 11 as
shown in Table 9 below.




2010 Annual FISMA Assessment                                          March 3, 2011
Report No. 489
                                     Page 55
                                                                                     Appendix V

  Table 10: OIG Response to Question 11
      ID               Questions from OMB Questionnaire                       Response
     11.a   The Agency has established and maintains a program to               Yes
            oversee systems operated on its behalf by contractors or
            other entities. Although improvement opportunities may have
            been identified by the OIG, the program includes the
            following attributes:
    11.a.1 Documented policies and procedures for information security
            oversight of systems operated on the Agency's behalf by
            contractors or other entities and that the Agency obtains
            sufficient assurance that security controls of systems
            operated by contractors or others on its behalf are effectively
            implemented and comply with federal and agency guidelines.
    11.a.2 A complete inventory of systems operated on the Agency's
            behalf by contractors or other entities.
    11.a.3 The inventory identifies interfaces between these systems
            and Agency-operated systems.
    11.a.4 The agency requires agreements (MOUs, Interconnect
            Service Agreements, contracts, etc.) for interfaces between
            these systems and those that is owns and operates.
    11.a.5 The inventory, including interfaces, is updated at least
            annually.
    11.a.6 Systems that are owned or operated by contractors or entities
            are subject to and generally meet NIST and OMB's FISMA
            requirements.
  Source: OMB FISMA Web Portal




2010 Annual FISMA Assessment                                                             March 3, 2011
Report No. 489
                                               Page 56
                                         Appendix VI




2010 Annual FISMA Assessment             March 3, 2011
Report No. 489
                               Page 57
                                         Appendix VI




2010 Annual FISMA Assessment             March 3, 2011
Report No. 489
                               Page 58
                                                                     Appendix VII


     OIG Response to Management’s Comments

We are pleased that OIT concurred with the report’s recommendation and has
initiated actions to address the issues described in the report. We believe that
full implementation of these recommendations will act to strengthen the SEC’s
information security systems.




2010 Annual FISMA Assessment                                          March 3, 2011
Report No. 489
                                     Page 59
                                                         Appendix VIII


                               Screenshots

Figure 1: SEC Administrative Notice, Issued 11/23/2010




Source: SEC Email from OIT




2010 Annual FISMA Assessment                               March 3, 2011
Report No. 489
                                  Page 60
                                         Appendix VIII


Figure 2: CSAM Home Page




Source: Generated by CSAM




2010 Annual FISMA Assessment               March 3, 2011
Report No. 489
                               Page 61
                                         Appendix VIII


Figure 3: Inventory of GAO POA&Ms




Source: Generated by CSAM




2010 Annual FISMA Assessment               March 3, 2011
Report No. 489
                               Page 62
                                         Appendix VIII


Figure 4: POA&M Entry Page




Source: Generated by CSAM




2010 Annual FISMA Assessment               March 3, 2011
Report No. 489
                               Page 63
                                         Appendix VIII


Figure 5: POA&M Page




Source: Generated by CSAM




2010 Annual FISMA Assessment               March 3, 2011
Report No. 489
                               Page 64
                                                   Appendix VIII


Figure 6: Incident Escalation Flow Chart




Source: SEC Incident Response Handbook




2010 Annual FISMA Assessment                         March 3, 2011
Report No. 489
                                         Page 65
                     Audit Requests and Ideas
The Office of Inspector General welcomes your input. If you would like to
request an audit in the future or have an audit idea, please contact us at:

U.S. Securities and Exchange Commission
Office of Inspector General
Attn: Assistant Inspector General, Audits (Audit Request/Idea)
100 F Street, N.E.
Washington D.C. 20549-2736

Tel. #: 202-551-6061
Fax #: 202-772-9265
Email: oig@sec.gov




      Hotline
      To report fraud, waste, abuse, and mismanagement at SEC,
      contact the Office of Inspector General at:

      Phone: 877.442.0854

      Web-Based Hotline Complaint Form:
      www.reportlineweb.com/sec_oig
